<html>
<title> - POLICY PROPOSALS FROM MEMBERS OF CONGRESS TO REFORM THE NATION'S SURFACE TRANSPORTATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    POLICY PROPOSALS FROM MEMBERS OF
                    CONGRESS TO REFORM THE NATION'S
                    SURFACE TRANSPORTATION PROGRAMS

=======================================================================


                                (112-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
65-643                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
STEPHEN LEE FINCHER, Tennessee       DONNA F. EDWARDS, Maryland
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
VACANCY

                                  (ii)




                  Subcommittee on Highways and Transit

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
THOMAS E. PETRI, Wisconsin           JERROLD NADLER, New York
HOWARD COBLE, North Carolina         BOB FILNER, California
FRANK A. LoBIONDO, New Jersey        LEONARD L. BOSWELL, Iowa
GARY G. MILLER, California           TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           GRACE F. NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  MAZIE K. HIRONO, Hawaii
JEAN SCHMIDT, Ohio                   JASON ALTMIRE, Pennsylvania
CANDICE S. MILLER, Michigan          TIMOTHY J. WALZ, Minnesota
ANDY HARRIS, Maryland                HEATH SHULER, North Carolina
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
JAIME HERRERA BEUTLER, Washington    LAURA RICHARDSON, California
FRANK C. GUINTA, New Hampshire       ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           DONNA F. EDWARDS, Maryland
BLAKE FARENTHOLD, Texas              EDDIE BERNICE JOHNSON, Texas
LARRY BUCSHON, Indiana               ELIJAH E. CUMMINGS, Maryland
BILLY LONG, Missouri                 NICK J. RAHALL II, West Virginia
BOB GIBBS, Ohio                        (Ex Officio)
RICHARD L. HANNA, New York, Vice 
Chair
STEVE SOUTHERLAND II, Florida
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Blumenauer, Hon. Earl, a Representative in Congress from the 
  State of Oregon................................................    29
Butterfield, Hon. G.K., a Representative in Congress from the 
  State of North Carolina........................................    29
Chabot, Hon. Steve, a Representative in Congress from the State 
  of Ohio........................................................    29
Chu, Hon. Judy, a Representative in Congress from the State of 
  California.....................................................    29
Critz, Hon. Mark S., a Representative in Congress from the State 
  of Pennsylvania................................................    29
Davis, Hon. Geoff, a Representative in Congress from the State of 
  Kentucky.......................................................    29
DeLauro, Hon. Rosa L., a Representative in Congress from the 
  State of Connecticut...........................................    29
Garamendi, Hon. John, a Representative in Congress from the State 
  of California..................................................    29
Green, Hon. Gene, a Representative in Congress from the State of 
  Texas..........................................................    29
McGovern, Hon. James P., a Representative in Congress from the 
  State of Massachusetts.........................................    29
Tonko, Hon. Paul, a Representative in Congress from the State of 
  New York.......................................................    29
Velazquez, Hon. Nydia M., a Representative in Congress from the 
  State of New York..............................................    29

        PREPARED STATEMENTS SUBMITTED BY CONGRESSIONAL WITNESSES

Blumenauer, Hon. Earl............................................    84
Butterfield, Hon. G.K............................................    87
Chabot, Hon. Steve...............................................    94
Chu, Hon. Judy...................................................    96
Davis, Hon. Geoff................................................    98
DeLauro, Hon. Rosa L.............................................   101
Garamendi, Hon. John.............................................   104
Green, Hon. Gene.................................................   108
McGovern, Hon. James P...........................................   113
Tonko, Hon. Paul.................................................   117
Velazquez, Hon. Nydia M..........................................   124

                       SUBMISSIONS FOR THE RECORD

Chu, Hon. Judy, a Representative in Congress from the State of 
  California, request to include the following materials in the 
  record regarding America Fast Forward: Creating Jobs the Right 
  Way:

  The QTIBs Provision: General Explanation of Qualified 
    Transportation Improvement Bonds Provision...................    38
  The TIFIA Provision: General Explanation of Transportation 
    Infrastructure Finance and Innovation Act Provision..........    40
  America Fast Forward: Creating Jobs the Right Way..............    42
  America Fast Forward: Proposed Federal Financing Tools To 
    Stimulate Transportation Infrastructure Investment...........    46
Napolitano, Grace F., a Representative in Congress from the State 
  of California, request to include recommendations for the 
  surface transportation reauthorization bill submitted by Cindy 
  McKim, Director, California Department of Transportation.......     6
Prepared statements submitted by Members of Congress:

  Barletta, Hon. Lou, a Representative in Congress from the State 
    of Pennsylvania..............................................   129
  Bass, Hon. Karen, a Representative in Congress from the State 
    of California................................................   131
  Berg, Hon. Rick, a Representative in Congress from the State of 
    North Dakota; Canseco, Hon. Francisco ``Quico,'' a 
    Representative in Congress from the State of Texas; Conaway, 
    Hon. K. Michael, a Representative in Congress from the State 
    of Texas; Cuellar, Hon. Henry, a Representative in Congress 
    from the State of Texas; Gardner, Hon. Cory, a Representative 
    in Congress from the State of Colorado; Neugebauer, Hon. 
    Randy, a Representative in Congress from the State of Texas; 
    Rehberg, Hon. Denny, a Representative in Congress from the 
    State of Montana; Smith, Hon. Adrian, a Representative in 
    Congress from the State of Nebraska; and Thornberry, Hon. 
    Mac, a Representative in Congress from the State of Texas....   135
  Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam..   138
  Calvert, Hon. Ken, a Representative in Congress from the State 
    of California................................................   142
  Coffman, Hon. Mike, a Representative in Congress from the State 
    of Colorado..................................................   145
  Connolly, Hon. Gerald E., a Representative in Congress from the 
    State of Virginia............................................   147
  Cummings, Hon. Elijah E., a Representative in Congress from the 
    State of Maryland............................................   149
  DeFazio, Hon. Peter A., a Representative in Congress from the 
    State of Oregon..............................................   151
  Filner, Hon. Bob, a Representative in Congress from the State 
    of California................................................   154
  Fincher, Hon. Stephen Lee, a Representative in Congress from 
    the State of Tennessee.......................................   159
  Garrett, Hon. Scott, a Representative in Congress from the 
    State of New Jersey..........................................   161
  Green, Hon. Al, a Representative in Congress from the State of 
    Texas........................................................   169
  Lummis, Hon. Cynthia M., a Representative in Congress from the 
    State of Wyoming.............................................   170
  McMorris Rodgers, Hon. Cathy, a Representative in Congress from 
    the State of Washington......................................   173
  Michaud, Hon. Michael H., a Representative in Congress from the 
    State of Maine...............................................   175
  Nunes, Hon. Devin, a Representative in Congress from the State 
    of California................................................   178
  Price, Hon. David E., a Representative in Congress from the 
    State of North Carolina......................................   179
  Quigley, Hon. Mike, a Representative in Congress from the State 
    of Illinois..................................................   183
  Reichert, Hon. David G., a Representative in Congress from the 
    State of Washington..........................................   185
  Schmidt, Hon. Jean, a Representative in Congress from the State 
    of Ohio......................................................   186
  Smith, Hon. Adam, a Representative in Congress from the State 
    of Washington................................................   187
  Southerland, Hon. Steve, II, a Representative in Congress from 
    the State of Florida.........................................   190
  Young, Hon. Don, a Representative in Congress from the State of 
    Alaska.......................................................   211

[GRAPHIC] [TIFF OMITTED] 65643.001

[GRAPHIC] [TIFF OMITTED] 65643.002

[GRAPHIC] [TIFF OMITTED] 65643.003



                     POLICY PROPOSALS FROM MEMBERS



                   OF CONGRESS TO REFORM THE NATION'S



                    SURFACE TRANSPORTATION PROGRAMS

                              ----------                              


                         TUESDAY, APRIL 5, 2011

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. John J. Duncan, 
Jr., (Chairman of the subcommittee) presiding.
    Mr. Duncan. All right. We will call the hearing to order 
today. The subcommittee is convening a hearing to receive 
testimony from various Members of Congress on their policy 
proposals for the reauthorization of the Federal surface 
transportation programs.
    I ask unanimous consent that members of the Committee on 
Transportation and Infrastructure who are not on the 
Subcommittee on Highways and Transit be permitted to sit with 
the subcommittee at today's hearing, offer testimony, and ask 
questions. Is there any objection?
    [No response.]
    Mr. Duncan. Hearing no objection, it is so ordered.
    Chairman Mica and I have gone around and held various field 
hearings around the country in regard to the highway bill. And 
then last week we heard testimony from over 40 different 
transportation organizations and associations. The subcommittee 
is in the process of reviewing the information provided during 
last week's hearings, and many of the innovative ideas put 
forward may become part of the surface transportation 
reauthorization bill.
    Today we will hear reauthorization policy proposals from 
Members of Congress. Several Members have introduced individual 
bills that make changes to the Federal highway, transit, or 
highway safety programs. This hearing will provide Members the 
opportunity to advocate for the reforms and improvements they 
are proposing in those bills, and proposing for their 
districts.
    This reauthorization of the highway, transit, and highway 
safety programs will be more challenging than any other in 
recent memory. Fiscal constraints will cause us to be more 
creative and find ways to do more with less. The committee will 
consider proposals to better leverage our highway trust fund 
dollars through loan and bonding programs and public-private 
partnerships.
    I also hope to hear ideas from Members on how to speed up 
the project delivery process. Time delays and inefficiencies in 
project delivery not only postpone needed improvements in our 
Nation's transportation and infrastructure, but also result in 
increases in the cost of projects.
    Additionally, the committee is seeking proposals on how to 
reduce the number of Federal surface transportation programs. 
Today there are more than 100 highway, transit, and highway 
safety programs. Many of these programs are duplicative or no 
longer serve a national need. I know there will be several 
proposals today to create new programs, but before we create 
new programs we must perform a thorough review of the existing 
programs, and eliminate the programs that are no longer needed, 
or that we can no longer afford.
    I look forward to working with Chairman Mica and Ranking 
Members Rahall and DeFazio on improving and reforming the 
Federal surface transportation programs. And with that, as soon 
as he has a chance to catch his breath, we will hear from the 
ranking member, any statement that he wishes to make at this 
time.
    Mr. DeFazio. Well, thank you, Mr. Chairman, for the 
continuing discussion of the authorization of the Surface 
Transportation Act. I look forward to the testimony and hope 
that some of our colleagues can give us some solutions to the 
problem which confronts us: a deteriorating infrastructure 
which has vaulted us from First World status to what I call 
Fourth World--that is, worse than Third World--in terms of the 
percent of our GDP that we are investing and the rapidity of 
the disintegration of the system.
    Given the rules adopted by the Republicans, we are not 
allowed to talk about new revenues. And if we live within 
existing revenues without some creative sort of financing, we 
will see the rate of deterioration accelerate. So I hope our 
colleagues have some good ideas. Thank you, Mr. Chairman.
    Mr. Duncan. All right. Thank you very much. We will now 
hear from any Members who wish to make opening statements. And 
first we will call on the vice chairman of the subcommittee, a 
gentleman from New York, Mr. Hanna.
    Mr. Hanna. Thank you, Mr. Chairman. I was pleased that this 
subcommittee was able to hold a listening session in my 
district earlier this month. It sent a strong message that we 
went directly to our constituents, as well as consulting with 
industry groups and other stakeholders down here in Washington.
    This bill is about our constituency, mobility and 
transportation needs of their communities, which they know 
best. I would like to reiterate a common theme that I have 
heard from my folks in my district throughout the discussion. 
New York is unique in many ways, and our infrastructure 
challenges vary from region to region.
    However, too often, small communities are left out of the 
planning process, and given little or no input with the State 
DOTs regarding project funding. Urban areas with high 
populations receive special sub-allowances and metropolitan 
regions with 50,000 or more people are represented at a State 
level by metropolitan planning organizations, MPOs.
    However, small rural communities like I represent are left 
to fend for themselves amongst very stiff competition. If 
metropolitan areas are given a say in where their Federal 
transportation dollars are spent, we should provide smaller 
rural communities with that same input.
    I look forward to working with my colleagues on the 
committee to include language in the reauthorization that gives 
local governments a seat at the table. While some States have 
voluntarily included regional planning groups in the process, 
many, including New York, have not.
    I ask that our 6-year bill incorporate language that 
accomplishes the following: allow for the creation of regional 
planning organizations to provide formal input in the State 
level planning process; direct these organizations to 
cooperate, not just consult, with their State DOTs, to put them 
at a par with their counterparts at MPOs; recognize at the 
Federal level these planning organizations to reinforce the 
role in the planning process; provide these organizations with 
a formal structure and delineated responsibilities to match 
those of MPOs.
    Rural communities face stiff competition for limited 
Federal transportation dollars. And I look forward to working 
with the committee to ensure local governments get a fair seat 
at the table.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank you very much, Mr. Hanna. The first 
Member here on the minority side is Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman, Ranking Member, and 
thank you, Mrs. Napolitano. Everyone in this room--this is one 
of those rare opportunities where we have business and labor 
together, a very popular topic out in my district of moving 
forward on a surface transportation bill, understanding that it 
won't only create short-term jobs, it puts us back to compete 
economically in the long term, whether that is moving farm 
produce out of Minnesota or in New York.
    I would like to associate myself with the gentleman from 
New York's remarks, Mr. Hanna, the vice chair. This idea of a 
regional transportation planning organization is a better and 
more efficient use of our dollars. It does not add extra 
bureaucracy to it, but it does give the voice that the 
gentleman was speaking of to our rural communities, making sure 
that we are connecting parts of this country in the most 
efficient manner.
    In the previous Congress, I had introduced 2782 that did 
exactly that. This piece of legislation gained great bipartisan 
support. I certainly think that is the way to go. I think it 
allows for that voice to be there, and does the things exactly 
as the gentleman said, allows for more local control, which I 
think is--in this piece of legislation, is right.
    Secondly, I would like to speak just for a moment on trying 
to streamline and uniform some of our policies on--truck 
weights is an issue and a particular interest of mine that I 
think we can get some uniform ability to get those weights 
where they are manageable. We pay for them, they are not 
doing--and we do the research necessary to make sure that 
bridge harmonics and everything are taken into consideration.
    The problem that I have is our limit is 80,000 in 
Minnesota. North Dakota is 105,000. South Dakota, on the other 
side of my district, is 129,000. Canada is 100,000. What we 
would like to see is an opt in on this to allow for the higher 
weight. State of Minnesota's Department of Transportation has 
agreed with this, and certainly think that is the way to go.
    So, we have got a great opportunity in this committee, 
bipartisan-wise, to agree on this is an issue that is clearly 
delineated in the Constitution for us providing for the post 
roads and the infrastructure of this country. It is a smart use 
of resources. I thank the chairman for getting out there, 
holding these hearings, listening to the American public. And I 
look forward to getting this thing done. And I yield back.
    Mr. Duncan. Well, thank you very much, Mr. Walz. Next on 
our side is Mr. Southerland.
    Mr. Southerland. Mr. Chairman, I have no comments. Thank 
you.
    Mr. Duncan. All right. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And thank you, 
Ranking Member DeFazio. There was a hearing in Los Angeles with 
Chairman Mica and Senator Boxer not too long ago on 
transportation. We very much appreciate that.
    We must produce a very robust transportation highway trust 
bill. It is a major economic recovery tool, creates jobs, 
provides congestion relief, gets the goods to market, and gets 
people to work faster. All committee members have agreed to 
$550 billion last year. It is supported by the Chamber, by 
business, by unions, by highway and transit officials. It would 
increase safety, improve public transit, reduce congestion, and 
reduce the freight impact on communities, especially mine.
    Strongly support the inclusion of a metropolitan mobility 
program that should address major bottlenecks in urban 
corridors, especially on I-5 in my district, the Santa Ana 
Freeway, one of the most congested freeways in the United 
States, with 25,000 trucks per day, and of course, our Alameda 
Corridor East, the 54 crossings that cause delays through the 
eastern Los Angeles, and slows delivery to--for on-time 
delivery to the rest of the Nation.
    We must include a program to deal with urban congestion, as 
well as freight improvement program--the dedicated source of 
funding to address the effects of freight movement on 
communities and improve that mobility.
    The freight movement from the ports Los Angeles and Long 
Beach do impact my district. And it is burdened with traffic 
delays on the freeways and at crossings. The air quality for 
diesel-spewing engines, the noise from the whistle on the rail 
cars are safety concerns on roadways and, of course, partly the 
road rage. We must provide funding for grade separations and 
cleaner truck programs to mitigate problems caused by freight, 
especially in those areas that have high concentration of these 
movements.
    There are 54 crossings in--as I said, in my area, and 
only--not even half are funded. Must increase funding for 
transit to keep cars off the road, especially mass transit. 
Buses and cars do get held up on freeways, just like everybody 
else. But mass transit would be very, very much an improvement 
in Los Angeles.
    And we must provide some incentives. One of the things that 
we have talked about are the grants, the TIFIA, improvement of 
the Transportation Infrastructure Finance and Innovation Act. 
The lowest interest bonds, such as Build America bonds, we--in 
that area I am looking for information on how we can provide 
any of the transit companies looking for assistance from the 
Federal Government, how to produce a private-public 
partnership, so that they may be able to move faster on these 
projects.
    The bill should streamline the environment and review 
program. California is the only State to participate in the 
surface transportation project's delivery pilot program 
authorized in SAFETEA-LU. It gives States stringent 
environmental review standards, and the ability to easily 
certify the NEPA and CEQA, once they have obtained their 
State's environmental certification. Programs very successful 
in streamlining the environmental review and speeding up 
project delivery for highway projects, and we need to expand 
this program to transit and other transportation projects. They 
should not have to do the work twice.
    Mr. Chairman, I ask unanimous consent to include materials 
submitted by Caltrans director Cindy McKim and Los Angeles 
Metropolitan Transit Authority director Art Leahy, with their 
public policy recommendations for the bill.
    Thank you both, and I yield back the balance of my time.
    Mr. Duncan. Thank you very much. Is there any objection to 
attaching any statements that any Member wishes to do so?
    [No response.]
    Mr. Duncan. Hearing no objection, any statements or 
materials that the Members wish to attach to their opening 
statements will be included in the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 65643.004
    
    [GRAPHIC] [TIFF OMITTED] 65643.005
    
    [GRAPHIC] [TIFF OMITTED] 65643.006
    
    [GRAPHIC] [TIFF OMITTED] 65643.007
    
    [GRAPHIC] [TIFF OMITTED] 65643.008
    
    [GRAPHIC] [TIFF OMITTED] 65643.009
    
    [GRAPHIC] [TIFF OMITTED] 65643.010
    
    [GRAPHIC] [TIFF OMITTED] 65643.011
    
    [GRAPHIC] [TIFF OMITTED] 65643.012
    
    [GRAPHIC] [TIFF OMITTED] 65643.013
    
    [GRAPHIC] [TIFF OMITTED] 65643.014
    
    Mr. Duncan. The next Member on our side is Mr. Gibbs. No 
statement? All right. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman. I appreciate this 
hearing, because I do think that when, as Democrats, we were in 
the majority and had the opportunity to move forward a 
reauthorization, I think that we didn't do service to the 
public in that, and that, you know, we look at transportation 
for a number of reasons: one, because we have transportation 
needs across this country that are unmet; we have challenges in 
moving projects through the approval process so that it stymies 
many projects that are worthy in the States; and because we 
want to improve commerce and create jobs.
    So, I think it is important for us to be both courageous 
and bold to meet the Nation's infrastructure needs, to look at 
creative and unique ways of financing, so that we have some 
capacity not just to delivery projects for today, but to make 
sure that we are doing what we need to do to move forward for 
the future, because we are way behind in our infrastructure. We 
can see that when we look from this country to other Nations 
that are both emerging and developing, who seem to be investing 
by leaps and bounds over what we are investing to meet our 
infrastructure needs.
    I represent a district that is here in the national capital 
region. We are home to a metro system, a metro-rail system, 
that services not just the people who live and work here in the 
capital region, one of the largest regions in the country, but 
also serves the Nation, serves the Nation in terms of 
facilitating Federal workers keeping our government moving--but 
the 20 million or so visitors who come from every region of 
this country and across the world, and who need a safe and 
reliable transit system to get around.
    And so, how do we find a way of identifying and 
prioritizing the unique needs of our States and our districts, 
rather than just leaving everything to the discretion of any 
one administration, whether that administration is a Democratic 
administration or a Republic administration? I think each of us 
on this committee and in the Congress can attest to the fact of 
our ability to know and understand the unique needs of our 
districts and our States when it comes to transportation. We 
are closer to the ground, so to speak.
    Projects such as those here in the metropolitan region, 
like the purple line that would wrap itself around the beltway 
in the national capital region are important, not just for my 
district, but also for freeing up the congestion and bottleneck 
along the I-95 corridor that serves the commerce needs of an 
entire eastern seaboard. And so, even though I might prioritize 
a project like this, it serves a broader public need.
    I think here in this region, as in across the country, we 
have to have a commitment to mass transit for the purposes of 
facilitating our ability to have clean air for our children to 
breathe, and clean water, and for the ease of commerce.
    And so, while I believe that it is good for us to get our 
work started--we are several months ahead of the next 
expiration of our authorization--I think it is important for us 
to get it right, and to make sure that, across the country, our 
States understand what our transportation priorities are, and 
they can get on with funding those long-term needs to match 
what happens at the Federal level. I have talked with our 
governor and our department of transportation officials, and 
they are, in some ways, in a stalemate because they do not know 
what it is that we will make a commitment to at the Federal 
level. And so it makes it very difficult to plan for the long 
term at the State level.
    And so, I--Mr. Chairman, I look forward to working with 
you, to working with our Members, to make sure that we are 
making the kinds of investments in transportation that will 
lead us to job creation toward greater economic success, and to 
make sure that we have a transportation system that meets our 
21st-century goals. Thank you very much, and I yield.
    Mr. Duncan. Thank you. Dr. Bucshon?
    Dr. Bucshon. Thank you. I want to thank the committee for 
the opportunity to discuss what I believe are the critical 
issues in transportation.
    I come before you today to tell you the story of my home 
State of Indiana, and the advances that we have made in our 
infrastructure. Thanks to the leadership of Governor Mitch 
Daniels, in the past 5 years Indiana has repaired or built over 
41 roadway projects that are open to traffic, repaired 588 
bridges, and invested $5.7 billion in new construction and 
preservation projects. It is critical to note that the governor 
has done this without raising taxes on the people of Indiana.
    In late 2005, Governor Daniels launched an aggressive 10-
year, $12 billion transportation plan known as Major Moves, to 
significantly improve and expand Indiana's highway 
infrastructure. Governor Daniels and the Indiana General 
Assembly approved the lease of a toll road for 75 years to a 
private corporation, resulting in the State acquiring a $4 
billion up-front payment that was put back into infrastructure 
projects in Indiana. This public-private partnership is funding 
road projects across Indiana, including expansion of Interstate 
69 through my district in southwestern Indiana.
    There are currently no interstate connections between 
Evansville and Indianapolis. The largest city in my district is 
Evansville, and the State capital is Indianapolis. Past 
governors have tried to get this done. In fact, Governor Evan 
Bayh in the late--in the 1990s even broke ground on the 
highway, but never had the money to complete the project. 
Governor Daniels has broken ground in 2008. And finally, our 
city of Evansville will be connected to the State capital.
    While many members of this committee and in Congress have 
in past been critical of public-private partnerships, Indiana 
has proven that it can be successful. This $12 billion plan has 
provided thousands of transportation jobs in Indiana, and 
created new and safe roads in one of the most heavily traveled 
States in the country.
    In 2005, Indiana labor unions worked with Governor Daniels 
on the original idea of Major Moves, and have continued to 
support this project.
    While Indiana has been building roads rapidly, they still 
face many of the problems that others across the country have 
been facing. What I have heard from countless engineers, 
construction companies, and State employees is that, ``Federal 
regulations and red tape are slowing us down.'' We are spending 
too much time making sure our paperwork is filled out 
correctly, and too much money on various permits that are 
needed to test ground for a potential new project. The 
regulations that we have put in place in Washington, DC, are 
hurting people in towns like Washington, Indiana, in my 
district.
    Let me give you an egregious example on I-69. They had to 
hire a box turtle-sniffing dog that they had to import from 
Tennessee for long stretches of the road, to make sure that the 
box turtles were out of the way. Now, as I have nothing against 
box turtles, this is something that is an egregious regulatory 
thing that the Federal Government has put in place, and shows 
an example of how ridiculous that this can get.
    We need to give back in whatever we do here in Washington, 
DC, more power to our States, and allow them to make decisions 
on what is best for their State. I would argue that none of us 
in this committee or in Congress knows what will work for each 
State better than the governor of the State and, more 
importantly, the citizens of our States. But yet we continue to 
put restrictions on what each State can do.
    Indiana would be able to save an estimated $8 million a 
year if current Federal ban on rest park commercialization, for 
example, was taken away. It is good public policy, possibly, to 
have rest parks on the interstate system. But in a time when we 
have critical shortages in funding, we need to revisit what our 
priorities are.
    As I have stated, Indiana has successfully completed 
public-private partnerships. They should be able to investigate 
doing this going forward. Denying States options by putting in 
onerous Federal regulations are inhibiting our States and our 
country from advancing.
    I would implore us to create legislation going forward that 
cuts red tape, and we need to invest our money in ways that are 
working and quit investing money in an old system that is not 
working. Give our States more flexibility, give our citizens 
more flexibility. Create an environment where States and cities 
can actively pursue public-private partnerships like in Indiana 
going forward in this time where we need out-of-the-box 
thinking on funding our infrastructure, going forward.
    Thank you, and I yield back the remainder of my time.
    Mr. Duncan. Thank you, Dr. Bucshon. Mr. Boswell?
    Mr. Boswell. Thank you, Mr. Chairman. I appreciate your 
leadership, and what you are doing here by getting us focused 
on what is going on.
    Mr. Chairman, I--maybe you can help me out, Mr. Chairman, 
but I know a few years ago we sat in here and it was a Shuster-
Oberstar or a Young-Oberstar, where we had quite a discussion, 
bipartisan discussion, about use tax. And we came to an 
agreement.
    And as I recall--and correct me, if you need to--but I 
think we recessed for 2 or 3 days, and they went to the White 
House to see, if we labored through this like we had in this 
committee, would we get support. And then they called us back 
together, and I think we were sitting pretty close, they walked 
in the room. We saw that they did not have a smile on their 
face, and they said, ``No, it would be vetoed.'' So we did not 
do it.
    Meanwhile, we labor on and on and on. And I have a lot of 
hope. I have confidence. You got handed the keys to this 
committee in one hand, and a whole list of longstanding 
problems in the other. And we are falling behind. A lot of you 
have traveled. You know what is going on in China, you know 
what is going on in Europe. You know a lot of places. And our 
infrastructure is falling behind. And we cannot compete in that 
situation, whether it is road, rail, mass transit, the whole 
thing.
    In my State, when I was in the legislature, and the old new 
governor is back--he was governor at that time, Governor 
Branstad--the last time we raised the fuel tax. But inflation 
alone has changed that to about $.15 short. And so, my farmers 
and manufacturers and contractors and everybody across--``Why 
are you waiting to do what is inevitable, we have to do?''
    And I told them about the experience I am just sharing that 
we did here in this committee. And, you know, we were going to 
make that adjustment. And I believe we were going to index, if 
I remember, so we would not have to go through this turmoil and 
keep up with inflation.
    So, I just wanted to give you encouragement, and work with 
you, and say, you know, I hope we do not just come up with 
another study. We have studied it to death. We need to do 
something. And I know you, I think what--you intend to do 
something. I am not sure what it is going to be yet. But we 
have got a challenge, and we cannot be competitive in this 
world economy if we do not take care of our infrastructure. 
That is just--whether it is farm-to-market, whatever it is, 
looking at Mr. Long down there, we understand if he cannot get 
the grain to town, he cannot get the cattle to town, cannot get 
the pigs to market, you know, it does not work. And we got a 
lot of things we need to work on.
    So, with that, I yield back and wish us all well, that we 
can actually move forward under the leadership we have got now. 
Thank you very much. I yield back.
    Mr. Duncan. Well, thank you very much, Mr. Boswell, for a 
very accurate statement. And we are sure going to try.
    The next one in line is Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman, for holding this 
hearing today and giving us an opportunity to share with you 
some of our priorities.
    I participated in several of the listening sessions that 
Chairman Mica had, and I think it is important, and I would 
like to highlight five bills that I have brought forward that 
reflect my priorities, and I think should be incorporated in 
the main bill.
    I recently introduced the Freight Focus Act, H.R. 1122. I 
represent 40 percent of the Nation's goods going through my 
particular community. I have a bridge that carries 15 percent 
of the Nation's cargo that has a diaper underneath it to catch 
the concrete that is falling down. That is the same bridge that 
approximately 10 years ago would have cost us $600 million to 
fix. Now it is going to cost us $1.3 billion to replace.
    The Freight Focus bill contains many provisions that I 
think we need to consider with goods movement in our 
infrastructure. One, I strongly believe that we need an office 
of freight within the Department of Transportation. Two, we 
need a national freight advisory committee that would include 
the private sector, so they would have an opportunity to give 
input, in terms of where dollars are spent, in priorities--
highways of significance. Three, we need to improve freight 
planning, and actually designate corridors of national 
significance. Four, I want to concur with what my colleagues 
have said. We need to create a goods movement trust fund.
    Now, I would like to focus my comments on the diesel tax 
side, as opposed to the general tax. When you look at a tax 
that has not been increased since 1993--and, as we heard last 
week when we had a hearing, if the industry is willing to tax 
themselves, why are we standing in the way?
    And my comment of this committee is I just think we need to 
have some opportunity--I don't think today is the forum, but 
there has got to be an opportunity for us to talk about the 
elephant in the room, and that is to say no taxes for no tax 
sake I don't think really makes any sense for either side. 
There needs to be an honest discussion about that particular 
issue or any other revenue opportunities that we have. Because, 
clearly, we are not generating enough dollars in the current 
gas tax.
    I have pushback that I think the diesel tax, in 
particular--you heard right here in this committee, where the 
American Truckers Association supported taxing themselves.
    Also what we heard--when you look at others who are willing 
to support this idea, who are also supporting my bill, Retail 
Industry Leaders Association, RILA, which is the largest group 
that is responsible for moving goods in and around all of our 
corridors. The Waterfront Coalition, the International 
Warehouse and Logistics Association. Something is wrong when 
all of the people who are actually doing the work are trying to 
move forward ideas that, for some reason, we have got groups of 
people who do not even want to discuss.
    The second key point I wanted to talk about is the TIFIA 
Enhancement Act. That is also a bill that I introduced, H.R. 
1123, that would increase the size of the current program, and 
it would continue to give local governments flexibility to be 
able to do long-term financing. I think you are familiar with 
that, and so I will hold my comments on that one.
    Third is the Build America bonds, which you have heard 
several Members mention. I have a bill, H.R. 736, which would 
extend this program into 2014.
    The other point is number four for me, which is my bill 
that has to do with what many people have talked about, which 
is the environment current regulations, and expanding our pilot 
program, which I do support. But we need to make sure that, as 
we balance this funding, and we look at these new ideas with 
regulation, that we do it in the correct way, that we not 
only--yes, we want to make sure that permits are not holding 
projects from going forward, but we also need to make sure that 
our environment is protected, as well.
    Finally, my fifth bill that I wanted to talk about is the 
Prevention of Unreasonable Fees Act, and that has to do with, 
in many of our airports today, there are areas where there is 
pre-arranged ground transportation services. In my State--I 
know in others--for example, if you have a car service that is 
picking up versus a taxi service, they are charged how many 
times they are going around the airport, and it really does not 
make sense.
    So, Mr. Chairman and Ranking Member, I just want to 
summarize my comments, that I and other colleagues have great 
pieces of legislation. We would like an opportunity to speak 
with you and your committee staff about how they can be 
incorporated. But while you were talking with Mr. Boswell I 
want to end with this point, which is what I started with.
    By us not looking at revenue options, the cost is not going 
to go away. The cost is still there. So for me, of a bridge 
that used to cost $600 million that is now going to cost $1.3 
billion, it has to be addressed.
    So, I look forward to working with you and the rest of my 
colleagues. Thank you very much.
    Mr. Duncan. Thank you very much, Ms. Richardson.
    Ms. Johnson?
    Ms. Johnson. Thank you very much, and let me thank our 
subcommittee chairman, Mr. Duncan, and Ranking Member DeFazio, 
being represented by Congresswoman Napolitano right now.
    As a member of the Highways and Transit Subcommittee I 
would like to express my appreciation to the leadership, as 
well as members of this committee for an opportunity to talk 
about what we consider to be priorities. And hopefully we will 
continue to have more input.
    I have introduced several bills that I would like to bring 
before the subcommittee's attention. First, I have authored 
H.R. 341, the Transportation and Infrastructure Finance and 
Innovation Act, TIFIA, which increases the maximum Federal 
credit assistance and local authority under TIFIA program for 
such projects from 30 to 49 percent.
    TIFIA funding is designed to leverage non-Federal funding, 
including investment from the private sector. This legislation 
will continue to allow substantial private co-investment to be 
leveraged at a time when Federal gas tax revenue and most 
States' resources are inadequate to meet the funding needs for 
large-scale transportation projects.
    And, secondly, I have introduced H.R. 551, which is a bill 
that would allow States to continue their own funds toward 
Federal and State agencies for transportation projects 
undergoing national environmental policy act. This is an 
environmental streamlining legislation falling directly in line 
with one of the committee's primary goals, to provide States 
the flexibility they need to address their unique 
transportation challenges by establishing innovative financing 
options. And I applaud the committee for its efforts to invest 
in these funds safely.
    Now, I guess 2, almost 3 years ago, I served on a task 
force that Speaker Pelosi put together where we had economists, 
researchers, Wall Street representatives, and it was very clear 
that it would be a long time before we would have the money to 
address the infrastructure needs in this Nation. And out of 
that came the idea of an infrastructure bank.
    I worked with Mr. Mica for a long time, trying to agree on 
an amount which we would work on. He wanted it to be $300-some 
billion, and I had in mind $50 billion. So, we did not get very 
far with that. However, I think it is still an idea that we 
should be considering on the table so that we can move on with 
continuing to curve the crumbling of our infrastructure in this 
country.
    And so, I thank you for this opportunity, and I hope that 
out of this we can get a package that would address many of 
these needs. As Congresswoman Richardson just said, putting it 
off does not make it go away. But it will make it more 
expensive. So, thank you very much. I yield back.
    Mr. Duncan. Thank you. Thank you very much, Ms. Johnson. 
Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman. There will be few 
opportunities for this Congress to truly impact not only the 
day-to-day life in our communities, but also to affect the 
prosperity of our future. Few pieces of legislation authorize 
programs that touch every State and community in a fundamental 
way. And our Federal surface transportation programs do just 
that.
    These programs create well-paying jobs, putting people to 
work, doing things that make it possible for our communities to 
thrive. They also provide the foundation for our well-
functioning economy. Reauthorizing these programs and reforming 
them for the future are important to the people of my home 
State of Hawaii. As the only island State, we do face unique 
transportation challenges. We have the highest gas prices in 
the Nation. We are a growing population, and traffic congestion 
is a serious problem.
    According to the urban mobility report by the Texas 
Transportation Institute, the average Honolulu motorist pays 
$709 each year in time and travel cost, due to congestion. 
Outside of Oahu, which is our most populated island, our 
neighbor island population is also growing. Demand for 
affordable public transportation options for workers on the 
neighbor islands have increased. In addition, we need to expand 
the capacity of our harbors and improve our airports and 
roadways.
    These are vital to the future success of Hawaii's economy. 
The Hawaii Institute of Public Affairs estimates that Hawaii 
needs a minimum of $14.3 billion in capital improvement 
projects. Many other States are facing similar challenges, and 
are looking for solutions, just as we are. Addressing these 
challenges will require a robust, long-term transportation 
reauthorization bill.
    I would like to share what I believe is a unique approach 
to dealing with our transportation challenges, or at least 
thinking about them, as well as some ideas that I hope will be 
included in a final bill. The Hawaiians divided our lands into 
ahupua'a, wedge-shaped land areas that went from the mountains 
to the sea. The idea was that everything that happened in the 
uplands will ultimately affect the coastal area and the ocean. 
In those days, the ancient Hawaiians managed the resources of 
each ahupua'a effectively and holistically. This allowed them 
to manage food and water resources to ensure prosperity and 
plenty for all, year-round.
    The idea behind ahupua'a is certainly appropriate today. If 
we approach things holistically and embrace smart development 
and transportation policies, I am confident our modern 
communities can also ensure prosperity and plenty for all, 
year-round.
    So, a good first step for us to work to achieve an 
integrated, inter-modal transportation system. This means 
investments in transit and transit-oriented development. These 
are the types of systems that give our citizens the option to 
take a train or a bus or a bike, or even just to walk, or any 
combination of these on any given day. Linking different modes 
of transportation also helps to connect workers with jobs, 
businesses with customers. Increasing transportation options 
also increases mobility and opportunity for people of all ages 
and income levels.
    Second, we have to continue investing in the safety and 
security of those using our transportation systems. The State 
of Hawaii has successfully used National Highway Traffic Safety 
Administration funds to reduce motor vehicle fatalities, 
increase seatbelt usage, and keep pedestrians safe.
    Third, we have to ensure that we are protecting and 
enhancing our environmental resources. This means that we must 
constantly pursue alternative energy, and focus on getting more 
cars off the road to help keep our air clean. And we must be 
diligent in incorporating these values into project 
construction, which means that people should be working 
together.
    In Hawaii, the Army Corps of Engineers works in concert 
with other agencies--the EPA, Fish and Wildlife, and others--
during the early stages of public works projects. This way, 
each project is looked at from a variety of perspectives at the 
outset. This saves time, money, and paperwork.
    Finally, we have to determine how to effectively finance 
these new projects and initiatives. Others have talked about 
the national infrastructure and development bank. This will 
provide a much-needed alternative means of financing these 
large projects--certainly not enough. We need to have an annual 
Federal commitment of some $225 to $240 billion for 50 years, 
just to upgrade all the modes of transportation to a state of 
good repair throughout our country. But all options should be 
on the table. The President's 2012 budget provides a solid 
blueprint from which to work, in terms of what we need to do.
    But I think we can also learn from the ancient Hawaiians to 
think about our shared challenges holistically, in order to 
effectively manage our prosperity for generations to come.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank you very much. Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman, for holding this 
hearing to solicit policy proposals for Members of Congress 
about the service transportation authorization bill.
    Many of us on this committee, myself included, recognize 
that in order to truly meet the infrastructure needs across the 
country, we need to write a bill that significantly increases 
funding. We know that there is a $2.2 trillion backlog, just to 
get our infrastructure up to a state of good repair.
    I have heard the mention in this committee the past couple 
of months about looking for ways to do more with less. I am 
deeply concerned about the implications of that approach, and 
fear that any cut in funding will have disastrous effects on 
jobs and on the economy, on the quality of life, on the state 
of good repair of our roads, bridges, tunnels, and rails, and 
on the environment.
    Unfortunately, considering the political climate in the 
House these days regarding public spending, I fear we will not 
report a bill with adequate funding levels. So, rather than get 
into every policy provision or program that I have worked on in 
this committee for the past 2 decades, I would like to focus 
today on two overarching concerns.
    First, it is extremely important that transit, public 
transportation and alternative modes of transportation, 
continue to play a prominent role in the surface transportation 
bill. I have heard Chairman Mica indicate the transit funding 
will remain ``about the same.'' I certainly hope that this--I 
certainly hope that at least that is true, if we cannot realize 
a substantial increase in transit funding. But in any event, it 
is imperative that we retain adequate funding and eligibility 
under the Federal program for public and alternative modes of 
transportation.
    Second, it is absolutely essential that the bill includes a 
rail title, and adequately deals with freight and goods 
movement. Too often we distribute funding through the silos of 
highways, transit, et cetera, and do not consider some of the 
bigger projects that cut across all modes, but which have a 
direct benefit to the highway system and commuters.
    I agree with Chairman Mica that we need a national 
strategy, and that freight and, in particular, rail freight 
must be a part of that equation. I am hopeful that in the next 
transportation bill we can include a program to fund projects 
of national and regional significance, as it was originally 
intended to ensure that we complete a few initiatives that are 
too big for one State to carry on its own, and which might not 
fall under the traditional eligibility requirements, but that 
are vital to the economy and national security or have other 
significant public benefits.
    I have had conversations with Chairman Mica and others on 
the committee about this, and I look forward to having more 
detailed discussions as the bill moves forward. I want to thank 
you, Chairman Duncan, for holding this hearing. I look forward 
to hearing from our witnesses.
    Mr. Duncan. Thank you very much. Mr. Young?
    Mr. Young. Thank you, Mr. Chairman, and I know that we have 
to go through this exercise of futility, and I do recognize you 
for that.
    I am very concerned about this whole process. I was the 
author of the last bill, and everybody in this room that was 
here before voted for that bill four times. And I have told the 
chairman I am not excited unless we figure a way around this 
program about writing a bill that gives the money, basically, 
to the President--I don't care who the President is--for the 
next 5 years, and then have that Federal Highway Commission 
decide they are going to send it to the State department of 
transportation.
    Now, I do not know how many of you in this room realize 
what that means. That means you have no say of anything about a 
highway bill. So why in the hell would we write a highway bill? 
Think about it a moment. Why would I give the President and the 
State department of transportation monies and I have no say 
where it goes?
    And I represent a whole State, I do not represent one 
little district. I have two major metropolitan areas, two of 
them. And I know my State department of transportation. We 
ought to eliminate all State departments of transportation, by 
the way. I think we would be a hell of a lot better off. 
Because they will put the money where the largest wheel turns. 
And the rest of the State transportation will be neglected. 
Neglected. And this is about transportation for all of the 
people, not just the few of the people. All of the people, 
small communities and large communities. Make it a network that 
serves this country.
    We are way behind the act. And, by the way, I have yet to 
speak to the chairman how we are going to finance this thing. 
If you had done what I wanted you to do 8 years ago we would 
have had it done. Now you did not get any support from my 
President and your President, or any of the leadership. ``Oh, 
we cannot raise any money.'' Gas is $1.36 at that time. And I 
wanted to raise it $.05 one time, index it, and we would have 
had this thing funded. I do not know how you are going to fund 
it right now.
    But in the meantime, as we go forth in this program, if we 
have any opportunity, as this committee of all committees, 
stick together and make sure our people understand on my side 
of the aisle, your side of the aisle, this is about 
transportation. There is no Democrat, there is no Republican. 
This is a transportation system for the United States of 
America, the people of America.
    Now, to have us shortchange this by an idea, ``Oh, we are 
going to let the Federal Government run this program,'' shame 
on us. Shame on us. We are the ones that said less government, 
less control, less regulations. And we are going to give it to 
the Federal Highway Commission?
    And, truthfully, Mr. Chairman, I am very concerned about 
this, and if there is not some breakthrough where every Member, 
as a congressman, has a right to dedicate where dollars should 
go--yes, it is called an earmark--and if you will go back 
through history, that is the Constitution. Only the Congress 
can raise money and spend money, not the President of the 
United States or an agency of his designation.
    We have neglected our duty by being true representatives of 
the people. The people have a right to address the government, 
and we are the government, not some unelected bureaucrat that 
does not know his backside from his sun side, but he thinks he 
does.
    So, Mr. Chairman, I am saying this very strongly, I hope 
you understand where I am coming from. This is not a good idea, 
to try to write a bill where we have no say in what occurs.
    Now, I have got that off my chest and I have got to go to 
another meeting. Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you very much, Chairman Young, for 
a very fine statement. And Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman. And I want to be 
associated with the remarks of the gentleman from Alaska, 
because I likewise feel that Members who raise the capital 
should have some input. You can call it earmarks, you can call 
it Members' priority. But the first Congress had an earmark and 
it was a lighthouse in Maine. So it has always been the 
responsibility of the Congress to raise the revenue. And we, of 
course, should have some input as to how that revenue is spent.
    I do want to talk about how happy I am that we are having 
these hearings. I want to thank Mr. Mica and Mr. Rahall for 
holding these hearings, because I think that we need the 6-year 
reauthorization bill. I think it would kick-start our economy. 
The railroad subcommittee will be holding a similar hearing on 
Thursday to hear testimony on issues that would be included in 
the reauthorization bill. I would encourage anyone that has 
suggestions for improving rail, pipeline, and hazmat programs 
to get them to the subcommittee as soon as possible.
    We are experiencing a renaissance in passenger rail in this 
country. And if we want to keep up with our international 
competitors, we need to make a significant investment in 
commuter and high-speed rail. I am an advocate for the support 
of a dedicated source of funding for rail, and would encourage 
the committee to include a minimum of $50 billion over the life 
of the bill.
    Compared to the funding level in the overall bill and the 
money being spent in other countries--for example, China, $350 
billion--this is a very small amount of money to dedicate to 
rail.
    Although we have some very small-minded governors, support 
for high-speed rail is still very high around the country. In 
fact, last night, as of 8:00 p.m., application deadline for the 
Florida high-speed rail funds was approaching, applicants 
throughout the United States was rolling in, into the FRA for 
the Florida money. I know New York is right in there, and 
California, and probably even Texas.
    I also believe that this reauthorization offers us an 
opportunity to improve the Railroad Rehabilitation and 
Improvement Finance program, RRIF. The RRIF program can help 
railroads, shippers, and States meet these rail infrastructure 
investment needs. But I think we are not taking full advantage 
of the program. I met with railroads and others and they tell 
me it takes too long, it is too expensive, you have to go from 
agency to agency. This is one example that we need to combine 
the regulations and work to make it more streamlined and find a 
way that we can reinvest in the infrastructure through the RRIF 
program.
    There is one program I do want to talk about. I want to 
encourage the committee to include language that ensures 
minority veterans and women-owned businesses are getting their 
fair share of the transportation pie. Federal transportation 
spending have historically served as a crucial means to empower 
socially disadvantaged businesses.
    Thanks to the effort of the Congressional Black Caucus and 
a bipartisan group of members of the House Transportation 
Committee, including Bud Shuster, when he was chairman, every 
major transportation bill since 1983 have mandated minimum 
levels of participation for minorities or women-owned business. 
Unfortunately, because the Federal Railroad Administration has 
not historically been a significant grant-making agency, it 
does not currently authorize--require opportunities for 
disadvantaged business.
    I strongly encourage the committee to take the steps 
necessary to provide the FRA with the authority and to develop 
other programs such as small business set-asides, 
subcontracting, goal-setting, and other avenues that ensure 
that minorities and disadvantaged businesses have fair access 
to Federal fund contracts.
    During the field hearing process, we have heard from 
witnesses who want to limit the scope of the bill to just 
building roads. In fact, I was just appalled when one person 
said that--and I support building roads, but he indicated that 
just roads, not even sidewalks, not overpasses. What about the 
children? What about the handicapped? When we develop a 
transportation bill, it should be comprehensive. It should 
serve all of the people.
    And so, with that, I would yield back the balance of my 
time. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Ms. Brown. And we have been joined 
by the ranking member of the full committee, Mr. Rahall. Do you 
have a statement?
    Mr. Rahall. No, thank you.
    Mr. Duncan. All right. Mr. Altmire.
    Mr. Altmire. Thank you, Chairman Duncan, for calling this 
hearing as the committee prepares the next transportation 
authorization. We can all agree that the priority of this 
committee is to advance policies that promote a surface 
transportation system that guarantees safe and efficient 
travel. We are also aware that American infrastructure 
currently faces challenges on several fronts, and my home State 
of Pennsylvania is no exception.
    Last month, Transportation for America released a report on 
our Nation's bridges that revealed that 26.5 percent of bridges 
in Pennsylvania are structurally deficient, giving Pennsylvania 
both the highest percentage and the greatest number of 
deficient bridges in the entire United States. This is an 
unacceptable statistic, but it is the reality for the traveling 
public in western Pennsylvania, and it needs to be addressed as 
a priority of this authorization.
    Mr. Chairman, repairing crumbling bridges is a safety 
concern not just for western Pennsylvanians, but for all 
Americans who want to be confident that the bridges they cross 
daily to get to work and take their children to and from school 
are structurally sound. Despite the fiscal constraints we face, 
this committee must focus on initiatives that connect 
communities safely now and in the future. This is one area 
where we can not afford not to act.
    And in addition to crumbling roads and bridges, we must 
confront the reality of our Nation's aging population. It has 
been estimated that 25 percent of American drivers will be over 
the age of 65 by the year 2025. These drivers have years of 
experience behind the wheel that help them make smart 
decisions. But they also have some physical and visual 
limitations that need to be addressed by sound public policy.
    The Federal Highway Administration's older driver handbook 
lays out several vital road safety alterations that can improve 
safety for older drivers on the roadway. These include signs 
with more legible font, reflective pavement markings, left-turn 
lanes at intersections, and better placement of signs. These 
improvements are inexpensive and have a proven track record of 
being extremely effective at reducing roadway deaths and 
injuries. By improving the markings and traffic patterns on our 
roads and highways, and making older drivers' daily travel as 
safe as possible, we increase road safety for every driver and 
every passenger on the road.
    Mr. Chairman, I look forward to working with you and the 
rest of the committee as we craft policies that will shape the 
way Americans travel for generations to come.
    Western Pennsylvania deserves safe roads and bridges, and I 
appreciate your leadership and cooperation in achieving that 
goal as this authorization moves forward. And I yield back the 
balance of my time.
    Mr. Duncan. Well, thank you very much, Mr. Altmire. And now 
we are honored to have the Honorable Geoff Davis and the 
Honorable Steve Chabot. And I thought maybe Ms. Schmidt was 
going to join--you are going to be up here, a member of the 
committee.
    And we will now hear their testimony. We will ask unanimous 
consent that the full statements of all Members be placed into 
the record. Is there any objection?
    [No response.]
    Mr. Duncan. Hearing none, that will be so ordered. Since 
your full written statements are now--or will be--included in 
the record, we will request that you summarize these statements 
in 5 minutes.
    And, Ms. Schmidt, do you want to go first, or do you want 
the----
    Ms. Schmidt. No, I am just listening.
    Mr. Duncan. OK, all right.
    Ms. Schmidt. We are packaged as a team.
    Mr. Duncan. All right. Well, thank you very much. We will 
hear first from Congressman Davis.

  TESTIMONY OF HON. GEOFF DAVIS, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF KENTUCKY; HON. STEVE CHABOT, A REPRESENTATIVE 
  IN CONGRESS FROM THE STATE OF OHIO; HON. JOHN GARAMENDI, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA; HON. 
   JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
CALIFORNIA; HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
       FROM THE STATE OF OREGON; HON. ROSA L. DELAURO, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF CONNECTICUT; HON. 
  GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
 TEXAS; HON. MARK S. CRITZ, A REPRESENTATIVE IN CONGRESS FROM 
     THE STATE OF PENNSYLVANIA; HON. NYDIA M. VELAZQUEZ, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK; HON. 
JAMES P. MCGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
 OF MASSACHUSETTS; HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NORTH CAROLINA; AND HON. PAUL TONKO, 
    A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Davis. Thank you, Chairman Duncan and Ranking Member 
Napolitano, for the opportunity to testify today. We are here 
today to discuss the necessity for Congress to develop and 
prioritize a program to finance nationally vital transportation 
projects where costs cannot be borne by one or two States 
alone.
    An example of such critical infrastructure projects is the 
Brent Spence Bridge, which, as you can see from our first 
handout, is a vital interstate structure on the critical north-
south I-75 corridor that crosses the Ohio River between our 
districts. As you can see from the second handout, one-third of 
the population of the United States lives within 275 miles of 
this corridor. The Brent Spence Bridge carries more than 3 
percent of our gross domestic product across the Ohio River 
annually. Replacement of this bridge is critical to America's 
economy.
    As you begin to develop core elements of the surface 
transportation reauthorization, we submit that a new process by 
which nationally vital transportation projects can be addressed 
and funded should be developed for the economic well-being of 
the Nation, as a whole. We must develop a rational process 
whereby critical infrastructure projects will be objectively 
identified and funded, based on merit. The 2011 authorization 
presents an opportunity to fill that need.
    Despite our best efforts during the previous transportation 
authorization bills, Congress has not established a sufficient 
mechanism for funding critical infrastructure projects where 
costs are so high they cannot be funded by one or more States.
    For example, the Brent Spence Bridge project will 
ultimately cost between $2 billion and $3 billion to complete, 
a burden which Kentucky and Ohio cannot shoulder alone. And we 
take a generation or more to fund this one project under 
current highway trust fund allocations.
    The Brent Spence Bridge enables more than $400 billion of 
commerce to travel from origin to destination, annually. With 
interstate truck traffic projected to grow by 10 percent by 
2030, the bridge, in its current state, will gridlock a vital 
national corridor causing lost income, wasted fuel, and reduced 
employment because we cannot efficiently deliver goods to 
customers.
    However, Ohio and Kentucky would have to dedicate their 
entire highway transportation budgets, to the exclusion of 
everything else, in order to fund the Brent Spence Bridge 
project. This is fiscally unrealistic, and would be 
unreasonable, given the benefits of the project that flow to 
the Nation, not just two States.
    Major transportation bottlenecks cost thousands of hours of 
delay, and have a negative impact on individual travelers, 
commuters, families, truckers, shippers, and receivers, 
particularly when the routes they travel are hostage to under-
funded critical infrastructure modes of national significant.
    The Woodrow Wilson Bridge between Maryland and Virginia, 
just southeast of downtown Washington, DC, is traveled daily by 
some in the room here. In 1993, 200,000 vehicles crossed that 
bridge every day. The Wilson Bridge carries Interstate 95 and 
495 across the Potomac River. The bridge supports a 
transportation corridor of national significance, connecting 
the southeastern and northeastern United States.
    At the time, the U.S. Department of Transportation 
estimated that the value of the freight trucked across this 
bridge was equivalent to 1.3 percent of the entire gross 
domestic product of the United States, less than half that of 
the Brent Spence Bridge mentioned earlier. By the mid-1990s, 
the bridge was carrying 250 percent of the traffic volume for 
which it was designed. The bridge only had three lanes with 
five highways lanes worth of traffic trying to squeeze through. 
The bridge had become a bottleneck with national significance, 
causing tens of thousands of hours of delay to American 
travelers and commerce.
    Neither Maryland nor Virginia could assume the $2.5 billion 
cost of this project, which was several times the annual 
statewide infrastructure budgets for both States. Additionally, 
there was no Federal program to fund projects that impacted the 
Nation as a whole. If Congress had not prioritized funding for 
the Wilson Bridge, funding that paid for the majority of the 
cost of the project, the bridge may have come to closure with 
economic impacts felt across the eastern seaboard.
    Congress helped resolve the funding issue, and the Wilson 
Bridge project was completed. However, resolution was cobbled 
together through exception, not by a cohesive decisionmaking 
and prioritization process like the one we are advocating for 
today. The 2011 authorization must include a mechanism for 
dealing with critical infrastructure projects like the Wilson 
Bridge that will hasten economic recovery and put Americans 
back to work.
    As we have noted, a current example of a project impacting 
the Nation as a whole is the Brent Spence Bridge. Not only a 
vital conduit of goods and people across the Ohio River, the 
bridge also connects Canada to Florida via I-75, as well as 
Ohio to the western United States via I-71, and feeds traffic 
and freight to Chicago via I-74 and all the way to Alabama via 
I-65. The bridge affects commerce in over 60 Congressional 
Districts across the central United States. Completed in 1963, 
it was designed to carry 80,000 vehicles today. And it will 
soon have to accommodate nearly 200,000 vehicles, despite being 
functionally obsolete.
    It is illustrative of projects over $400 billion in freight 
crossing the Ohio River for the American economy, more than 3 
percent of our gross domestic product. It is a critical 
infrastructure project for the United States, and will create 
tens of thousands of jobs. I urge my colleagues to ensure the 
2011 transportation authorization has a program for providing a 
funding mechanism for critical infrastructure.
    Finally, I would like to express my tremendous appreciation 
to my colleagues, Steve Chabot and Jean Schmidt, for their help 
and partnership through the years, as we hope to see this 
project forward to benefit our Nation.
    With that, I thank you for your consideration and yield 
back, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Davis.
    Mr. Chabot?
    Mr. Chabot. Thank you, Chairman Duncan and Ranking Member 
DeFazio and Congresswoman Napolitano, and all the other members 
of the committee, for giving us the opportunity to address the 
committee and testify today.
    Congressman Davis, I want to take this opportunity to thank 
you for your continued leadership on this issue. I look forward 
to working with you.
    And Congresswoman Schmidt, I also want to thank you for 
your leadership. And this is a project I know we have all 
worked on for many years. And even our predecessors, going back 
many years, we have worked on this. And it has been done in a 
bipartisan manner, and I would encourage us all to continue to 
do that as we move forward on a transportation bill.
    Like Congressman Davis, I am also here to support the 
authorization of a program in the 2011 transportation bill to 
include projects of regional and national significance. We need 
to be pragmatic in our approach to this transportation bill, 
ensuring that every dollar spent represents a long-term 
investment that will improve the flow of commerce and create 
American jobs. We must recognize that, although we face 
significant budget challenges, the basic infrastructure of our 
Nation must be a top priority.
    In Cincinnati we have a project of regional and national 
significance that I believe is the type of project Congress 
needs to consider while taking up the highway bill. The Brent 
Spence Bridge, as previously referred to by Congressman Davis, 
is not only critical to our local economy, but, like 
Congressman Davis said, it is a major commercial artery 
connecting the Midwest with the South.
    The annual value of freight crossing the bridge exceeds 
$400 billion. That is a little over 3 percent of our national 
GDP crossing one bridge. And by 2030, the value in real dollars 
is expected to more than double to $800 billion, nearly a $1 
trillion. The benefits of a project with that kind of freight 
value are tremendous. The Brent Spence Bridge project would 
save an estimated $748 million in congestion costs annually, 
savings that would grow in real dollars to $1.3 billion 
annually by 2030.
    A 2009 study done by the Texas Transportation Institute 
concluded that completing the Brent Spence Bridge project would 
save 2.9 million man-hours of delay, 210,000 vehicle-hours of 
delay, and 1.22 million gallons of fuel every year. Over the 
next 20 years this would result in $18.9 billion in benefits 
for commuters, shippers, and manufacturers.
    The numbers are powerful on their own, but with freight 
serving as a key determinant of our economic competitiveness in 
the new global marketplace and the economy, projects like the 
Brent Spence Bridge carry even greater significance. With the 
price of oil well over $100 a barrel, and freight traffic 
scheduled to increase by 10 percent by 2030, our ability to 
efficiently move goods within our Nation's borders is critical 
to keeping the price of American goods low and competitive in 
the global marketplace.
    It is no secret that our country faces serious economic 
challenges. Our national debt, let us face it, is out of 
control. And that is due, in large part, to poor decisions and 
wasteful spending of taxpayers' money. Those of us in Congress 
are consequently forced to make tough choices on how to wisely 
invest in projects on their merits, not on their politics. We 
owe it to the American people to invest only in those projects 
that will produce long-term savings, keep us competitive and, 
most importantly, create American jobs.
    Like my friend and colleague, Congressman Davis, and like 
Congresswoman Jean Schmidt, I strongly urge you to ensure that 
the 2011 highway bill authorizes funding for projects of 
regional and national significance, like the Brent Spence 
Bridge.
    Thank you for your time. I yield back the balance of my 
time.
    Mr. Duncan. Thank you very much, Mr. Chabot. Ms. Schmidt 
wants to also testify about this particular project, and then I 
will go to Mr. Larsen.
    Ms. Schmidt. Thank you. And I want to thank Congressman 
Davis and Congressman Chabot for highlighting this very 
important project. Just a couple of quick things.
    Ohio is one of the areas of the country where it moves 
services within 500--most of the services in the United States 
are moved within 500 miles of Ohio. So the I-71/I-75 corridor 
is well-used. That all feeds into the Brent Spence Bridge. I 
would like to add a couple of things to your facts on it.
    One is, while structurally it gets about a B -, capacity-
wise it is at an F -, because there are no lanes for 
breakdowns. It is wall-to-wall across the bridge. It is the 
sixth most used bridge in the country. And, as highlighted 
before, 3 percent of our GDP is moved across that bridge.
    But more importantly, it highlights something that we have 
a greater concern in the United States, and that is major 
projects. How are we going to fund major projects, multimodal 
projects across the United States, under the current formula 
that we have now? I think, Mr. Chairman, we have to find ways 
to do that, language within the transportation bill, and 
funding outside of the transportation bill's scope. And toward 
that end, I look forward to working with you.
    And I thank the gentleman for highlighting this very 
important need for the United States.
    Mr. Duncan. Well, thank you very much. I think, as some of 
you know, I have had so many relatives in the Cincinnati-Dayton 
area throughout my life--and also, in fact, we held a Duncan 
family reunion one time in Mr. Davis's district there, at the 
Drawbridge Inn. But I am very familiar with this. Interstate 75 
also runs through my district. I have been in both of your 
districts many, many times. So it is a very important project, 
and I thank you for coming to testify here today. Thank you 
very much.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Duncan. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I want to thank you 
for the opportunity before the subcommittee to consider some of 
the policy proposals that I want to put forward for the next 
surface transportation bill. I look forward to working with 
you, Mr. Chairman, and Ranking Member DeFazio, to invest in our 
Nation's infrastructure and create jobs as we rewrite the 
Federal surface transportation legislation.
    Now, as we write this next bill, it is clear that our 
Nation needs a significant investment in our transportation 
infrastructure to create private sector construction jobs, 
invest in the repair and maintenance of our highways, roads, 
bridges, and transit, and set the foundation for future 
economic growth.
    In the Pacific Northwest, where I am from, transportation 
investment means jobs. Local private sector engineers were in 
my office last week, and said that the single biggest action 
Congress could take to save and create jobs in their industry 
would be to pass a 6-year transportation authorization bill.
    Now, the full committee chair has indicated that we should 
not expect a bill that calls for more funding than the highway 
trust fund can sustain. In other words, a bill that contains 
less funding than the SAFETEA-LU. So, I support innovative 
financing mechanisms, but I will be clear. Innovative financing 
mechanisms would only be supplements to the highway trust fund, 
not substitutes. It is hard to see how innovative financing 
bridges the gap between current trust fund levels and the 
amount that most transportation experts believe we need to 
simply maintain the transportation system that we have.
    If this committee is going to write a $250 billion bill, we 
should all be clear on what that means: States and localities 
will do less with less. Fewer private sector construction jobs 
will be created. Fewer highways, roads, and buses will be 
maintained. And even fewer new capacity-building projects will 
be built.
    On the issue of consolidation, Mr. Chairman, I support 
the--consolidating Federal transportation programs, as the 
Democrats first proposed in the 2009 Surface Transportation 
Authorization Act. And, as well as streamlining the Federal 
permitting process. These measures will not fill the funding 
gap, but they are simply necessary reforms important for the 
future of transportation funding.
    Currently there are 108 separate Federal surface 
transportation programs administered by 5 separate Federal 
agencies. The current program structure is fragmented and 
stovepiped, and there is little relation between our national 
transportation goals and this complicated decisionmaking 
process.
    Then-Chairman Oberstar's Surface Transportation 
Authorization Act proposed consolidating or terminating more 
than 75 programs. It would have transformed the current 
structure into a performance-based framework designed to 
achieve specific national objectives.
    The GAO recently concurred with this approach in their 
March 2011 report on opportunities to reduce potential 
duplication in government programs, save tax dollars, and 
enhance revenue. The GAO argues that, ``This fragmented 
approach impedes effective decisionmaking, and limits the 
ability of decisionmakers to devise comprehensive solutions to 
complex challenges.'' They concluded that ``a fundamental re-
examination and reform of the Nation's surface transportation 
policies is needed.'' I urge the committee to heed the GAO's 
advice.
    Next I would like to discuss a top transportation priority 
for my district in the reauthorization bill. Meeting these 
priorities will mean jobs in the Pacific Northwest.
    First, the issue of ferries. Ferries are a top priority for 
my district and for the State. The Washington State Ferry 
System is the largest system in the United States, and carries 
over 25 million riders annually. Ferries are an integral part 
of the transportation infrastructure of Washington State. They 
are an extension of our highway system. They provide public 
transportation to help thousands of my constituents get to work 
and to return home. So I encourage this subcommittee to improve 
and expand upon this investment and this form of 
transportation.
    In fact, next month, Senator Patty Murray and I, from 
Washington State, will introduce the U.S. Ferry Systems 
Investment Act of 2011. Our legislation will make a robust 
investment in the Federal ferry boat program, also mandate that 
half of these funds be distributed by formula, and half 
through--by a discretionary basis.
    Second, highway safety. My district includes U.S. Highway 
2, a stretch of highway where there have been over 50 fatal 
accidents since 1999. So I support the inclusion of a robust 
safety program, or at least an emphasis in the next surface 
transportation bill that could direct resources toward 
particularly dangerous highway corridors.
    Finally, Mr. Chairman, freight mobility is a priority. In 
Washington State, freight systems supported over 1 million jobs 
in freight-dependent industry sectors. Washington State's 
transportation infrastructure, including our northern border 
crossings, Interstate 5, the Burlington Santa Fe and Union 
Pacific rail lines, the ports of Everett, Seattle, Tacoma, and 
others, and inter-modal connectors, all of them, are critical 
to supporting the movement of freight and goods that create 
jobs.
    Investment and freight mobility is important, because the 
more freight we move, the more jobs we create. And I support 
the creation and funding of a national freight transportation 
program that will work with States and local governments to 
invest in highway rail and port projects that eliminate choke 
points and increase efficiency.
    Mr. Chairman, I want to thank you for the opportunity to 
present my policy requests for the next surface transportation 
authorization. I look forward to continuing to work with you 
and the rest of the subcommittee as we look at how to invest in 
our Nation's infrastructure to create jobs. Thank you.
    Mr. Duncan. All right. Thank you very much, Mr. Larsen, for 
a fine statement.
    We are honored now to have Representative Garamendi. And, 
Mr. Garamendi, your full statement will be placed in the 
record.
    And you may proceed.
    Mr. Garamendi. Mr. Chairman, thank you very much, members 
of the committee.
    I have just listened to three presentations, and all three 
of them speak to what I would like to start my policy statement 
with, and that is let us make all this stuff in America. We do 
have a Buy America provisions, they have been in the law for a 
long time, but they are routine, they are ignored. We need very 
strong make-it-in-America--because, frankly, we need to rebuild 
our manufacturing base here in this Nation. And we can use our 
infrastructure programs to do that.
    Speaking specifically today of transportation, all well and 
good. If we are going to build a bridge, it ought to be 
American steel. If we are going to deal with transit systems, 
they ought to be buses, trains made in America. I have 
legislation that is now in the hopper, H.R. 613, Airports, 
Highways, High-Speed Rail, Trains, and Transit, all of it. Let 
us make it in America. If we are going to use our tax money to 
buy something, we ought to use it to buy American-made 
equipment. There is a provision in this that allows us to move 
toward 100 percent over 3 years.
    So, I will start there. Let us use our money to strengthen 
the American manufacturing base. We know it can be done. The 
stimulus bill did it. And now we are seeing Siemens and other 
foreign countries--companies--establishing manufacturing plants 
here so that they can move forward with building high-speed 
rail.
    Secondly, I support President Obama's $556 billion/6-year 
surface reauthorization plan to modernize our country's surface 
transportation infrastructure to create jobs and to invest in 
our future. I like the idea of a jump start. We need jobs now. 
We certainly need jobs in the future. But his $50 billion 
boost? Terrific. We ought to do it, ought to be in the bill. We 
ought to move forward with it.
    The $8 billion in 2012 and $53 billion over 6 years to 
provide 80 percent of Americans with convenient access to 
passenger rail, high-speed services in the next 25 years, 
bravo, ought to be in the bill, we ought to do it. The $30 
billion over 6 years for the national infrastructure bank, 
terrific idea. It gives us a way to leverage both public and 
private money. It should be in the bill.
    The next generation air transportation system, I don't know 
how many years this precedes me--by at least a decade-and-a-
half--but yet it is not yet done. Let us get it done. It is 
going to make air travel to the Pacific much easier for Mrs. 
Napolitano and myself, and we think that is a great idea.
    The $10 billion for the state of good repair, OK. But that 
also reminds me of another issue, which is the state of high 
denial that seems to exist within this Congress on this side 
and the other side, and perhaps also in the administration. 
There is no freebie here. We are going to have to find the 
money to do it. So if we are going to have a state of good 
repair, we have to end the state of high denial that somehow 
there is going to be money falling from trees or somewhere that 
is going to pay for this.
    We need to be very, very serious about this, and we also 
need to understand that later this fall there is no excise tax. 
It terminates. And we are going to have to reauthorize the 
excise tax on diesel and gasoline. And as we do that, we ought 
to consider the overarching needs and set that price--set that 
at a level where we can actually do the things that must be 
done for America's future.
    Specifically on the Bay area, the northern California San 
Francisco Bay area is one of the largest transportation places 
in this Nation, and it has over 5 million passengers a year on 
public transportation. So as we reauthorize, we need to pay 
attention to the transit systems that serve the entire Nation, 
and particularly the Bay area. There is BART, there are bus 
systems, there is transportation programs of all kinds, 
including Amtrak with its Amtrak capital corridor the San 
Joachin corridor, and the--also the peninsula.
    We have three major airports: San Francisco, Oakland, San 
Jose. We have ports: the Port of Oakland, the Port of West 
Sacramento, Stockton, and also a couple of smaller ports in the 
area. All of these need our attention, and we have to do the 
money to do it. High-speed rail is much discussed. California 
will build it, and it will service well into the future.
    Livable communities. Yes, bicycles are really important, as 
are walking and other ways of getting to the transportation 
hubs.
    And finally, let me just finish with five major interstate 
routes: Interstate 80; 680; 580; two State routes that have 
become major corridors, the 4 and the 80. All of these are 
critically important, and they have to be properly integrated 
into the overall structure and funding of the new surface 
transportation program.
    I won't go into pipeline safety, but we are all across this 
Nation going to spend billions upon billions in upgrading our 
pipelines. And I think all of us are aware of that.
    In conclusion, we simply are going to have to build for our 
future. The transportation infrastructure is critical. I thank 
you for the extra 20 seconds, and I will be happy to answer any 
questions.
    Mr. Duncan. Well, thank you. Thank you very much, Mr. 
Garamendi. I certainly agree with your Buy America statements. 
And at some point we have got to stop rebuilding Iraq and 
Afghanistan and start rebuilding the United States of America.
    Mr. Garamendi. Well, why don't we do that by denying the 
funding for those programs, and start ratcheting down the 
funding and transfer that here?
    It personally drives me crazy. We didn't get into the 
program, but I represent the Delta crucial to California's 
future. I cannot find a Corps of Engineer person to work on 
that seriously. But I suspect if we talked about the delta of 
the Euphrates River we could find all kinds of folks to work on 
that. Thank you very much.
    Mr. Duncan. All right. Thank you very much. Ms. Chu has 
been here with us for a while, and we will go next to her, and 
then we will get to Mr. Sires.
    We are honored to have you, Representative Chu, and you may 
begin your testimony.
    Ms. Chu. Thank you so much, Mr. Chair. Los Angeles is one 
of the most congested and polluted counties in the Nation. And 
now, more than ever, we need a transportation system that will 
create jobs. That is why it is so critical that we move forward 
on a surface transportation authorization.
    I am here today to reiterate our region's most important 
priorities, and to urge you to include these suggestions in any 
draft surface transportation bill. To that end, I would like to 
ask that you include in the record the Los Angeles County 
Metropolitan Transportation Authority's detailed proposal that 
they call America Fast Forward, also known as the 3010 Plan.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 65643.015
    
    [GRAPHIC] [TIFF OMITTED] 65643.016
    
    [GRAPHIC] [TIFF OMITTED] 65643.017
    
    [GRAPHIC] [TIFF OMITTED] 65643.018
    
    [GRAPHIC] [TIFF OMITTED] 65643.019
    
    [GRAPHIC] [TIFF OMITTED] 65643.020
    
    [GRAPHIC] [TIFF OMITTED] 65643.021
    
    [GRAPHIC] [TIFF OMITTED] 65643.022
    
    [GRAPHIC] [TIFF OMITTED] 65643.023
    
    [GRAPHIC] [TIFF OMITTED] 65643.024
    
    [GRAPHIC] [TIFF OMITTED] 65643.025
    
    [GRAPHIC] [TIFF OMITTED] 65643.026
    
    [GRAPHIC] [TIFF OMITTED] 65643.027
    
    [GRAPHIC] [TIFF OMITTED] 65643.028
    
    [GRAPHIC] [TIFF OMITTED] 65643.029
    
    [GRAPHIC] [TIFF OMITTED] 65643.030
    
    [GRAPHIC] [TIFF OMITTED] 65643.031
    
    [GRAPHIC] [TIFF OMITTED] 65643.032
    
    [GRAPHIC] [TIFF OMITTED] 65643.033
    
    [GRAPHIC] [TIFF OMITTED] 65643.034
    
    [GRAPHIC] [TIFF OMITTED] 65643.035
    
    [GRAPHIC] [TIFF OMITTED] 65643.036
    
    [GRAPHIC] [TIFF OMITTED] 65643.037
    
    Ms. Chu. In 2009, LA County approved a 30-year 
transportation plan that aims to build 12 transit projects 
connecting millions of people across the Nation's largest 
county. LA County residents approved a half-cent sales tax to 
build them. That's right. During a recession, residents 
actually agreed to tax themselves more. Our region desperately 
needs this investment, and I am so proud that Angelenos were 
ready and willing to pay for it.
    But our air is too polluted and our roads too congested to 
wait 3 decades for a real 21st-century transportation system. 
Instead, we want to do it in just 10 years. We want to leverage 
our local dollars and stretch the Federal transportation 
dollars coming out of the U.S. Department of Transportation's 
budget. And with the Federal Government's help to augment this 
serious investment in local transportation, together we can 
create nearly 1 million annual private sector jobs in just a 
decade.
    How do we do this? By enhancing the Transportation 
Infrastructure Finance and Innovation Act, TIFIA, through 
reforming six provisions. First, increasing the annual funding 
from $122 million to over $500 million, annually. Second, 
increasing the maximum TIFIA share from 33 percent to 49 
percent. Third, broadening eligibility to include programs-
related projects, not just one project per TIFIA loan. Fourth, 
authorizing the U.S. Department of Transportation to make up-
front master credit agreements for larger projects and 
programs. Fifth, to authorize the Transportation Department to 
offer limited interest rate hedge for master credit agreements. 
And last, to eliminate the springing lien for certain types of 
loans.
    But that is not all. The surface transportation bill should 
also create a new class of qualified tax credit bonds called 
qualified transportation improvement bonds. These qualified tax 
credit bonds are taxable rate bonds issued by State, local, or 
other eligible issuers. The Federal Government would subsidize 
the interest cost by granting investors annual tax credits in 
lieu of interest. These bonds would be authorized in the amount 
of $4.5 billion per year over the next 10 years. This would 
allow issuers to finance more than twice the dollar value of 
capital improvements than is possible with traditional tax-
exempt bonds, stimulating greater investment and taking 
pressure off of conventional Federal grant programs.
    But southern California's transportation challenges are 
more than just about roads and transit. The region handles more 
than 40 percent of our Nation's shipping containers, three-
quarters of which leave destined for markets outside the area. 
And many of these goods travel on freight rail right through my 
district, creating congestion and safety hazards for my 
constituents.
    Now our State and communities have made significant local 
investments in making local grade separation safer, 
particularly through the Alameda Corridor East project in the 
San Gabriel Valley. These investments allow trains to go faster 
through the corridor, getting these goods out to the rest of 
the Nation more quickly, and also saving lives.
    But we need Federal help to finish the project. The surface 
transportation bill should create a national freight 
infrastructure investment program for designated freight 
corridors and gateways to provide funding for freight projects. 
This program should prioritize nationally significant projects 
and their impact on interstate and foreign commerce. And 
efficiency and environmental impact should be considered.
    Port authorities and municipalities and units of local 
government should be able to receive these grants and funding 
projects through to completion, similar to a full-funding grant 
agreement for transit projects. These changes would strengthen 
long-term economic recovery by supporting the more efficient 
movement of American exports and imports, and create jobs.
    Now, let me be clear. This is not just about Los Angeles. 
It is about making our Federal tax dollars stretch further. And 
this type of a reform will encourage other areas to follow in 
our footsteps. Let us make sure we get the most bang for our 
buck. I urge you to include these proposals in any draft 
legislation.
    Mr. Duncan. Well, thank you very much, Ms. Chu. A very fine 
testimony. Mrs. Napolitano, any statement you wish to make, or 
comments?
    Mrs. Napolitano. I totally agree with her assessment, 
especially in the view of the fact that California has 35 
million people that have to get to work, and the aging 
infrastructure has not been really upgraded for many decades. 
And I think it is time that we begin to really focus. Seeing as 
California provides a lot of the funding for transportation, we 
are a donor State, so to speak. So I agree. Thank you.
    Ms. Chu. Thank you.
    Mr. Duncan. All right. Thank you very much, Ms. Chu. Mr. 
Sires?
    Mr. Sires. Thank you, Chairman Duncan and Ranking Member 
DeFazio, for holding this important hearing. I appreciate the 
opportunity to share my policy proposals as we work together to 
reauthorize the surface transportation bill.
    As many of you know, my district in New Jersey is one of 
the most densely populated, and is also an important 
transportation hub, home to highways, commuter rail, light 
rail, and the largest port on the East Coast. I believe that an 
effective transportation policy should focus on ways to improve 
congestion, make our transportation system more efficient, and 
protect the environment and health of our constituents.
    This Congress I have introduced legislation that I believe 
will prove useful if incorporated into the surface 
transportation bill. The first is H.R. 260, Commute LESS, which 
stands for leveraging employer support and successes. This bill 
was modeled after a successful program in Washington State. In 
2009, Washington's commute reduction board reported that their 
program removed 28,000 vehicles from the road, reduce 12,900 
hours of delay, and led to savings of $9 million in congestion 
costs.
    Based on these successes, I believe that my legislation, 
Commute LESS, can similarly work throughout the country. If 
implemented, the results will be less congestion, less emission 
of greenhouse gases, and ultimately, better efficiency in our 
transportation system. Commute LESS would give employers the 
tools necessary to provide their employees with alternative 
forms of transportation, such as transit, carpooling, and 
teleworking. Metropolitan planning organizations would work 
with employers to receive input regarding the development of 
long-range transportation plans.
    Additionally, if construction plans impede the flow of 
traffic for more than 120 days, or exceed $100 million, this 
bill will require a mitigation plan. I believe that this bill 
provides the solution necessary to expand commuting options 
during a time when congestion has cost Americans $115 billion 
and 34 lost hours.
    I also introduced H.R. 1338, the Focusing Resources 
Economic Investment and Guidance to Help Transportation Act of 
2011, and believe that its broad policy proposal should be 
considered in the upcoming bill. This legislation would help 
achieve national objectives of bettering our communities 
through reduced congestion and pollution, while also 
stimulating our economy.
    The Freight Act focuses on three policy ideas. The first is 
the creation of a national freight transportation policy to 
improve freight efficiency, operation, and security. This plan 
would access the current national freight system and its 
ability to achieve future objectives and goals.
    Second, this bill will establish a dedicated office of 
freight planning and development within the Department of 
Transportation to be led by an assistant secretary of freight 
planning and development. This office will be instrumental in 
facilitating communications among stakeholders and different 
levels of government.
    Lastly, national freight infrastructure grants will be 
awarded on a competitive basis to improve the efficiency of our 
national transportation system. With freight, volume is 
expected to increase 92 percent by 2035. It is important that 
our Nation is prepared to meet these needs. And I believe the 
freight policy ideas can help.
    Livable communities. Livable communities are also an issue 
that I feel strongly about, and I believe it belongs in the 
upcoming bill. The HUD, DoT, and EPA partnership for 
sustainable community has been successfully working to 
integrate planning and investment among the three agencies. 
Their programs are working to provide more transportation 
choices and promote public health.
    Additionally, Safe Routes for Schools is another program 
that has had nationwide success. Safe Routes for Schools 
reduces congestion while also encouraging healthy and safe 
options for children. Both the partnership and Safe Routes are 
important tools to reach the goals of streamlining our 
transportation system.
    Lastly, I must urge the committee to focus on 
infrastructure and investment. Not only are investments 
necessary to bring our country into the future, but investments 
will bring jobs: $1 billion in infrastructure creates 
approximately 35,000 jobs. The construction sector unemployment 
rate is still over 20 percent, and we have thousands of people 
waiting to work.
    The committee has focused on finding ways to do more with 
less. And I agree that this is needed. I believe that both 
Commute LESS and the Freight Act can meet these goals. I also 
believe that creating livable communities provides holistic 
framework to ensure that our policies improve the well-being of 
our constituents.
    Thank you, Chairman Duncan and Ranking Member DeFazio, for 
holding this hearing. And I look forward to a robust 
reauthorization bill. Thank you very much.
    Mr. Duncan. Well, thank you very much, Mr. Sires.
    And we are now honored to be joined by our colleague, Earl 
Blumenauer from Oregon. And Congressman Blumenauer, it is an 
honor to have you here with us.
    Mr. Blumenauer. Thank you, Mr. Chairman. I must confess 
that I miss the 10 years I spent with you on this committee, 
and am privileged to be with you. I would identify strongly 
with the elements that were mentioned by my good friend from 
New Jersey, and would echo them. Because what we know is that 
the Surface Transportation Act is probably our most effective 
tool to be able to rebuild and renew America, to put people 
back to work, and to give them tools, as my friend mentioned, 
to be able to work more efficiently.
    Transportation should be about giving citizens and 
businesses options. People want more choices. It is 
interesting, the study by the National Association of Realtors 
showed that over 50 percent of Americans think we ought to 
invest more in public transit and active transportation instead 
of merely automatically increasing traditional road-building 
infrastructure. But we know that is important, as well.
    The cost of congestion to society has increased almost 500 
percent in the last 30 years. Being able to work collectively 
and flexibly, to be able to move passengers, and freight, and 
strengthen community is what it is all about.
    I was pleased to see what has happened, as was referenced, 
with the unique partnership between the Department of 
Transportation, HUD, and EPA. It is unparalleled. And we have 
watched almost 1,500 communities make applications for the 
Tiger Grants, for instance, and there are only 51 of them. We 
could have increased that investment 40 times with worthy 
projects. I am just pleased that my community got one, and that 
I have been able to visit communities around the country where 
people are putting it to work.
    It gives an opportunity for people to enhance that 
flexibility, which brings me to my second point, because I know 
the committee has been looking at ways to streamline the 
process. This is something that has occupied our time. I would 
hope that we can reframe the regulatory debate beyond the rules 
and regulations and the hoops that we jump through.
    But what actually is the outcome? Can we make this more 
performance-driven? Mrs. Napolitano has a State that has 
environmental regulations that are arguably stronger than the 
Federal Government. Well, when there is a big transit project, 
for instance, in southern California, or a road project in 
Sacramento, does it make sense to require two separate 
processes, if the State process is arguably even stronger? What 
is the benefit for the extra time and energy?
    I think, by making this performance-driven, this is 
something that people of all philosophies, all color States, 
can come together. And it is something I would like to work 
with the committee on. I have taken this to the White House 
after the President's recent Executive order on regulation, 
suggesting that we do business differently, not just look at 
the good and the bad.
    I also hope that we can spend more time talking about how 
we finance infrastructure. One of the reasons why I grudgingly 
took a leave from this committee to go to Ways and Means and go 
to budget is because, frankly, you need more resources to 
realize the vision. The American Society of Civil Engineers 
suggests that we are $2.2 billion down for infrastructure 
needs, just for the next 5 years.
    You know, it is interesting. Ronald Reagan, at the height 
of the work that he was doing, supported a gas tax increase. We 
see our friends in the Senate with their FAA reauthorization 
come together for user fees that are actually supported by the 
industry that would support billions of dollars of investment. 
I know this is not primarily your jurisdiction, but I would 
urge that you work with us, because I will fight for you on the 
revenue title on Ways and Means, and carry that to the budget 
discussion.
    And while we are at it, we need to be looking at the long-
term financing. Using for transportation a fee that is based on 
gallons consumed locks us in a downward spiral. I come from a 
State that gave you, 91 years ago, the first gas tax dedicated 
for transportation, road construction. We are working to try 
and eliminate the gas tax with work that we have done, 
authorized by this committee before, on a vehicle-mile-traveled 
fee, which has been a pilot project that has been very 
successful.
    I came before you last year, urging that you incorporate a 
portion of legislation that I have that would expand this pilot 
project to other States that would like it. Because, 
ultimately, with hyper-efficient diesel trucks, with more fuel-
efficient gasoline-powered cars, with hybrids, with plug-in 
hybrids, with electric cars, we are in a downward spiral that 
cannot support our transportation needs, even while they put 
demands on the road. I would urge that you look at 3311 from 
the last session, and see if there is something that we can do 
with you to expand that, so people understand the power and the 
capacity.
    And in the short term, I would hope that we could look 
perhaps at legislation that I have to change the truck excise 
tax to a fuel tax. The big hit to the transportation fund was 
the collapse of truck sales, and that 12 percent excise tax did 
not collect the money. I have been working with the auto 
dealers, the truck manufacturers, with a range of groups, to 
see if we cannot replace that excise tax, which is very 
unstable, with a revenue-neutral proposal that would simply 
have a small increase in the fuel tax in the interim. That 
would promote the sales of equipment, it would stabilize the 
highway trust fund, and I think would help position us, moving 
forward.
    There is no more important work for this Congress than what 
you are doing with reauthorization. I know it is not easy. I 
know there are lots of tugs and pushes and pulls. I will supply 
a statement for the record about some other interests that I 
have. But I did want to join with you to make these three 
points, to pledge my support, and hope that we are able to work 
with you on the long term for the things that will help us 
rebuild America, make our communities more livable, and our 
families safer, healthier, and more economically secure.
    Mr. Duncan. Well, thank you very much, Mr. Blumenauer, and 
you have just shown those of us who are here, through your 
testimony, why you were such an outstanding member of this 
committee. And I look forward to working with you on some of 
those proposals, as you said, especially some of the 
environmental requirements and several of the other things, as 
well. You have made some very good suggestions.
    Any comments, Mrs. Napolitano?
    Mrs. Napolitano. No, except you forgot to mention the 
bicycle paths.
    Mr. Blumenauer. But I am silently advertising before you.
    Mr. Duncan. Mr. Hanna?
    Mr. Hanna. [Off mic.]
    Mr. Blumenauer. Thank you, Mr. Chairman, Congressman Hanna. 
My goal would be that we work very hard to make it not 
subjective, that we identify what it is that we are trying to 
achieve with a particular environmental protection.
    I worked in a prior life, when I was commissioner of public 
works for the city of Portland, I was part of an effort for our 
region to work with our largest employer, Intel--actually, it 
is the largest concentration of Intel employees anywhere in the 
world--on a plant expansion. It required an air quality permit. 
And there was some ambiguity about what would happen, in terms 
of having bureaucrats designing what was necessary for that 
plant expansion.
    And we were able to work out with EPA and our State 
regulatory authority, conditions where they committed to meet 
the standard, but we got out of the way, in terms of what the 
specifics would be. And they were able to move forward with the 
project. They saved millions of dollars. And the air is just as 
clean, if not cleaner. And that--so I do not want it to be 
subjective. I do not want us to be in the cross-current.
    I bleed green. It is not about protecting the environment 
or the health. It is just getting to the point of what we are 
trying to achieve, making that standard specific, and then 
holding people accountable for meeting it.
    Mr. Hanna. Thank you.
    Mr. Blumenauer. Thank you, sir. Thank you very much, Mr. 
Chairman.
    Mr. Duncan. Well, thank you very much, Mr. Blumenauer. And 
now I will recognize Mr. Cohen for any statement or comments 
that he wishes to make.
    Mr. Cohen. Thank you, Mr. Chairman Duncan. I appreciate 
your leadership and recognition.
    I have the privilege of representing Memphis, Tennessee, 
America's airtropolis, in addition to being the home of Elvis, 
and the unfortunate site of the assassination of Dr. King 43 
years ago yesterday, where there is a great new civil rights 
museum.
    In Memphis we have the four R's come together: roads, 
runways, rails, and river. And it makes our city distinct in 
our country, as a distribution hub and transportation center. 
We move more cargo through our airport--largely because of 
Federal Express--than any airport in the United States, and 
second only to Hong Kong in the world.
    As a representative of this town, which is a transportation 
town, I understand the need of functioning transportation 
infrastructure to keep our Nation's economy moving. It is one 
place we are lagging behind our counterparts in Asia and in 
Europe.
    Every evaluation of our transportation infrastructure makes 
the same conclusion, that our infrastructure is crumbling, and 
Congress needs to pass long-term authorization that makes a 
significant investment in that infrastructure. It is not only 
important for the immediate needs of our economy and our 
putting our people to work with jobs, but also the long term of 
keeping our economy going and competing on the world stage, as 
an important trade partner and producer and distributor of 
goods and products.
    This point is moist poignantly made by the appropriately 
titled AASHTO report, ``Rough Roads Ahead: Fix Them Now or Pay 
for It Later,'' which states that one-third of the Nation's 
highways are in poor or mediocre condition. I hate to think of 
the structure of our bridges, which threaten lives, as well. 
This report and others indicate that now is the time not to 
stand pat and reduce our spending, but that we need to keep our 
country and our people and our economy moving in the 21st 
century. We need to move forward with investments, not stand 
pat.
    The Surface Transportation Authorization Act authorization 
must do more than invest in our infrastructure. It needs to 
provide a visionary comprehensive systemic approach to 
infrastructure investment that addresses the Nation's 
commercial needs. To that end, I propose two pieces of 
legislation that achieve this mission by advancing the 
development of airtropolis transportation systems.
    I worked with Chairman Mica to advance airtropolis 
transportation systems, development in the FAA Reauthorization 
Act and hope to do the same in the Surface Transportation 
Authorization Act.
    The 21st century has been dubbed ``the fast century,'' an 
era when speed and agility will determine commercial success. 
And to serve that need, new urban forms are coming about, 
comprising multimodal transportation networks and aviation-
intensive businesses called the airtropolis. It is developing 
around the world. Paris, France, has an airtropolis concept. 
They have got one in China, in addition to--a couple in China, 
in Hong Kong being another.
    Similar in shape to the traditional metropolis design, the 
airtropolis extends from major airports. Centered around that 
airport is a planned, coordinated, multimodal freight and 
passenger transportation network called an airtropolis 
transportation system. It involves not just the airport, which 
is the center of economic activity, but trucks that come in and 
bring goods, railroads that come in and bring goods, and even 
river transportation moved by other forms of transportation to 
the air hub, that then distributes it to the world.
    Airtropolis development systems are developing across the 
country in other cities besides Memphis--although Memphis is 
premier--cities such Detroit and Milwaukee. But all these 
cities need Federal support to compete in this international 
marketplace.
    To spur domestic airtropolis transportation system 
development, I am introducing legislation that directs the 
Secretary of Transportation to establish a grant program to 
provide funding assistance to local entities for planning, 
design, environmental review, and land acquisition activities 
for airtropolis transportation system projects. Many 
airtropolis transportation systems throughout the country are 
developing slowly, because local entities lack the requisite 
funding for pre-construction activities. By providing a small 
influx of money in the pre-construction phase, the government 
can help localities expedite project delivery, enhance U.S. 
competitiveness, and create jobs.
    I will introduce the Airtropolis Act of 2011, which amends 
SAFETEA-LU, so that projects--assistance of the establishment 
of airtropolis transportation systems are eligible to receive 
funds under the projects of national and regional significance 
program. This program funds projects with national economic 
benefits that cannot be funded through traditional funding, 
making the program an appropriate funding mechanism for 
airtropolis transportation systems. Without that support and 
investment, airtropolis won't take flight in the United States, 
and leave our Nation grounded.
    We must ensure we use innovative approaches to address 
growing transportation needs of our citizens. To do so, we need 
to support the President's livability agenda, by creating an 
office of livability within the Department of Transportation, 
and develop an extensive livability agenda.
    As our Nation's population ages, gas prices climb, we have 
to have more than just cars and trucks. We need to have bike 
paths, we need to have walking paths. We need to have other 
forms of transportation that God has given us, and that aren't 
dependent on fossil fuels.
    Lastly, we need to resolve how to better invest in programs 
like the Intermodal Freight Transportation Institute at the 
University of Memphis, which is educating transportation 
engineers of our future.
    It is also--the University of Memphis has great athletic 
basketball teams, but not as good as the University of 
Connecticut's this year. But next year we will be better.
    I look forward to working with you to pass a long-term 
comprehensive surface transportation authorization act to 
create jobs and keep our country moving. Thank you, Mr. 
Chairman.
    Mr. Duncan. Thank you very much, Mr. Cohen. Our next 
witness will be the Honorable Rosa DeLauro, from the State of 
Connecticut. Ms. DeLauro, it is an honor to have you here with 
us.
    Ms. DeLauro. Thank you very, very much, Mr. Chairman. Go 
Huskies. Thank you, Mr. Cohen. Really delighted and proud to be 
here with you this morning. I want to thank Chairman Duncan, 
and I want to thank the ranking member, Mr. DeFazio, 
Congresswoman Napolitano. Good to be here with you. This is a 
wonderful opportunity you have provided me to testify about the 
national infrastructure bank.
    I might add that on a recent CODEL to Afghanistan I had the 
opportunity to talk about transportation infrastructure in 
general with Chairman Mica. And I and my staff have discussed 
the proposal at length with Representative Shuster of the 
committee, as well. And he generously spent some time in 
Connecticut earlier this year, looking at our high-speed rail 
development in the northeast corridor. So I thank all of you 
for your great leadership on this issue.
    I want to commend the subcommittee for its recognition that 
investment in transportation infrastructure is critical to job 
creation and to economic growth. Everyone here understands that 
we need to make wise investments with limited resources, and 
that investments in infrastructure pay enormous dividends in 
jobs and prosperity.
    If you will permit me to quote you this morning, Mr. 
Chairman, you said in a hearing last week that this 
subcommittee ``will also be looking at innovative financing, 
bonding, loan programs, and public-private partnerships are 
just some of the innovative financing techniques that the 
subcommittee can utilize to leverage the Nation's limited 
highway trust fund dollars.''
    In addition, Mr. Chairman, and again I quote, you said, 
``We should consolidate duplicative Federal programs to 
eliminate waste and eliminate programs that do not serve the 
national need.''
    Mr. Chairman, I agree with the entirety of these 
statements. In fact, these hit on the exact goals and purpose 
of a national infrastructure bank. To that end, I introduced 
legislation that would establish a national infrastructure 
bank, government-owned corporation, managed by an independent 
board of directors and staffed with experts in finance and 
infrastructure. It would leverage private dollars to invest 
objectively in a broad range of infrastructure projects of 
national and regional significance with clear economic, 
environmental, and social benefits.
    On the lending side, the bank would leverage private 
dollars by issuing bonds that will attract interested 
institutional investors with proceeds used to provide loans and 
loan guarantees to projects. On the borrowing side, the private 
sector can partner with the public sector--regions, States, 
localities--to borrow from the bank, while adding its own 
private equity.
    The bank takes a diverse view of infrastructure needs. It 
provides funding to projects that cross traditional 
jurisdictions, and prioritizes those with additional sources of 
financing that can be completed more promptly with assistance 
from the bank. Authorized appropriations would capitalize the 
bank, which would then lend money to projects with identifiable 
and reliable revenue streams, so that loans are paid back, and 
the bank becomes a self-sustaining entity.
    To be clear, the purpose of a national infrastructure bank 
is to supplement, not supplant current funding mechanisms. I am 
a strong supporter of the robust surface transportation 
reauthorization measure, as well, and believe this should be 
part of that effort. The infrastructure bank concept 
acknowledges what we all know, that current Federal programs 
are simply unable to provide the investment needed to meet the 
infrastructure investment deficit that we face.
    According to the National Surface Transportation Policy and 
Revenue Study Commission, $225 billion is needed a year for the 
next 50 years to upgrade our surface transportation system to a 
state of good repair, and create a more advanced system. 
Particularly in light of our current fiscal situation, now is 
the right time to move forward with this innovative finance 
proposal.
    Over the past month I know this committee has conducted a 
series of 16 field hearings and listening sessions around the 
country to gather input from States and local communities. It 
is seeking input from the transportation community for the 
surface transportation reauthorization. I suspect many of them 
would advise that they support a national infrastructure bank.
    The concept has received a wide range of support from 
business, labor, and the investment communities, as well as a 
bipartisan group of governors and mayors and a variety of 
advocacy groups. In fact, a bipartisan counterpart to my 
legislation has been introduced in the Senate by Senators John 
Kerry, Kay Bailey Hutchison, Mark Warner, and Lindsey Graham.
    In sum, by leveraging private dollars, streamlining and 
focusing our infrastructure investment decisions, funding 
projects critical to economic growth, and creating good, well-
paying jobs, a national infrastructure bank can help to meet 
the goals the committee has set out for the surface 
transportation reauthorization. I hope that we can come 
together to craft an authorization for a national 
infrastructure bank that can attract the type of bipartisan 
support within the House that the proposal has enjoyed for 
years outside the institution.
    Republican or Democrat, we all know that transportation and 
infrastructure investment creates jobs, revitalizes our 
economy. I believe that the bank will help put us and help to 
put America back to work.
    I thank you. I look forward to working with the 
subcommittee on this initiative. Thank you, Mr. Chairman. Thank 
you, Mrs. Napolitano.
    Mr. Duncan. Well, thank you very much, Ms. DeLauro. And I 
agree with you. Mrs. Napolitano.
    Mrs. Napolitano. I concur totally with the statement made 
by our colleague, Ms. DeLauro. It is really key that we get 
this bill moving.
    Ms. DeLauro. OK. Thank you so much, and I appreciate the 
opportunity to testify this morning.
    Mr. Duncan. Thank you. All right. Our next witness is the 
Honorable Gene Green from Texas.
    And, Mr. Green, it is a privilege to have you here with us. 
Thank you very much.
    Mr. Green. Thank you, Mr. Chairman, and our ranking member, 
Mrs. Napolitano. Thank you for allowing me to testify today. 
And I understand the physical challenges we face, but I also 
believe we must do more to improve our Nation's transportation 
system.
    I represent the east side of Houston, Texas, and east 
Harris County that includes both the Port of Houston and a 
support system based on a movement of trucks out of the port. 
Transportation funding, particularly for highways and transit, 
is particularly important for my constituents, the entirety of 
the greater Houston area. We have a congestion problem in 
Houston. We have done a lot to reduce this congestion, but more 
must be done.
    We also have the largest port in the country for foreign 
tonnage, and the largest petrochemical complex in our country 
along the banks of the Port of Houston. In years ahead we will 
face a much higher traffic volume, due to the population growth 
and the expansion of the Panama Canal, which will bring more 
truck traffic and economic development to the area.
    In order for Houston and our port to continue to be a hub 
of commerce, we must strengthen our rail and road 
infrastructure. Both a successful port and growing local 
economy rely on well-maintained roads and bridges. Communities 
around our country must improve transportation infrastructure 
in order to encourage businesses and economic development.
    With a population of 6.1 million, the Houston area relies 
on highway funding. Texas is a donor State. We pay more into 
the highway trust fund than we receive. As a result, it is 
important that percentages are maintained so that we do not 
lose any more money of the money that Texas pays into the fund. 
Ideally, under a new bill, our percentage would increase.
    Right now is the best time to fund construction projects. 
With the recent downturn in the economy, construction projects 
have decreased in cost. The Texas Department of Transportation 
has told me they saved as much as 20 percent on projects funded 
under the American Recovery and Reinvestment Act, because costs 
during recession went down a great deal.
    One project I am familiar with is the direct connectors on 
State Highway 59 and the Beltway 8 around Houston on the north 
side that is in our district was initially estimated it cost 
$100 million. It ended up a total cost of $36 million.
    I am concerned about the increased reliance on toll roads. 
They certainly have a place in our system, and we have them in 
the Houston area, but we cannot allow two different highway 
systems to develop, one for the wealthy, who can afford the 
daily budget drain of toll roads, and the rest of us, who 
cannot. If the toll roads that are constructed are paid for by 
the tolls, I believe that expands options for drivers and is 
generally a good thing. However, I do not support any Federal 
funds being spent on these roads. While I understand the strain 
that the highway trust is experiencing, particularly with 
increasing vehicle fuel efficiency, it is important we fund 
important highway projects throughout the country.
    We are at a critical time for our Nation, in terms of 
transportation funding. We must fix the bridges, expand the 
highways, and increase the capacity of our infrastructure. 
Funding for new starts is important for Houston, and I hope to 
be included in the authorization bill.
    In--Houston is current scheduled to receive full funding 
grant agreement for two light rail lines under the new starts 
program this summer. I am happy that both the Federal Transit 
Administration and the Department of Transportation have seen 
the significance of these two projects. Houston is our only 
light rail, is supported by local funds, and these projects 
would actually be a partnership with the Federal Government, 
which would not only stimulate job creation, but also improve 
our local transportation infrastructure by providing affordable 
mass transit and easing congestion on our highways.
    The Houston area has, for too long, been left behind on 
transit. And these two lines will serve some of the most 
transit-dependent parts of our community. For that I am 
thankful, and for the added commerce and economic opportunities 
the light rail will bring to these communities.
    Highway and transit projects are important to our 
constituents so they can work, go to work and school, and they 
are important to our business, so they can move commerce. 
Everyone wins when you increase our investments in 
transportation infrastructure.
    And again, thank you for the time today, and thank the 
committee for allowing Members to testify.
    Mr. Duncan. Well, thank you very much, Mr. Green. I wish 
all of our $100 million projects would come in at $36 million. 
We could get a whole lot more done.
    Mr. Green. I was shocked myself. In fact, that interchange 
was at the corner of our district, but along with Ted Poe's and 
Sheila Jackson Lee's, so all of us agreed we would stand there 
and hold the same scissors as we cut them, because it was a 
partnership from all three of us.
    Mr. Duncan. Well, that is great. You have been an 
outstanding Member of Congress. How long have you served now?
    Mr. Green. I am in my tenth term, Mr. Chairman.
    Mr. Duncan. Tenth term. I knew it was something like that. 
Mrs. Napolitano?
    Mrs. Napolitano. Nothing. Just great testimony, Mr. Green.
    Mr. Green. Thank you.
    Mr. Duncan. Thank you very much. Our next witness is the 
Honorable Mark Critz from Pennsylvania. And we are pleased, 
certainly pleased to have you with us here today. And I thought 
we were going to get right to you, and then a couple of others 
who were scheduled before you--and you were--I was going to let 
you go ahead anyway, but I saw that you graciously moved out of 
their way, so I appreciate that.
    But thank you, and you may begin your testimony.
    Mr. Critz. Well, thank you, Mr. Chairman, for the 
opportunity to testify. And, Mrs. Napolitano, I appreciate the 
opportunity. I do not have a prepared statement, and--but I 
just wanted to go over some notes about something that happened 
in the 2005 reauthorization of SAFETEA-LU, and sort of what 
brought us to this position.
    In 1991, in the Intermodal Surface Transportation 
Efficiency Act, ISTEA, there was language put in that states 
that have toll highways could use the toll credits from those 
as matching funds for Appalachian Highway System projects. That 
was going along quite well.
    And to give you a little bit of background about 
Pennsylvania, the Pennsylvania Turnpike, of course, is one of 
the oldest highways in the country, and there is actually a 
portion that runs between Breezewood, Pennsylvania and New 
Stanton, Pennsylvania, where Route 70, a Federal highway, joins 
the turnpike. And at that stage, for that 89-mile stretch, the 
Federal Government bears no cost to maintain that portion of 
the highway.
    In fact, if you use new highway construction costs, which 
are running in the $20 million to $25 million range, that 89-
mile stretch of highway saved the Federal Government quite a 
bit of money in past years. But looking at it from a current 
standpoint, a reasonable amount of money to consider for just 
upkeep and maintenance of a stretch of highway is probably 
about $1 million a mile every 5 years.
    So, the 5 years since the language was changed in the 
SAFETEA-LU reauthorization in 2005, the State of Pennsylvania 
has actually saved the Federal Government probably 
approximately $190 million in maintenance costs to that stretch 
of highway.
    But even going further, what the turnpike also does is that 
they contribute approximately $450 million back to Pennsylvania 
for other highways that are not part of the turnpike system. 
So, when you talk about innovative financing, Pennsylvania has 
been at the forefront of using their highway system and their 
interstate dollars to supplement what the Federal Government 
has been able to do.
    And if you look at Pennsylvania from a geographic 
standpoint, it is hard to move commerce between the northeast 
population centers and the rest of the country without going 
through Pennsylvania. So, even though we take a hit sometimes 
because our roads are not always the least pothole-filled ones 
in the country, we do have more miles of roadway than the 
entire northeast New England States combined. So we do try to 
maintain that link between the northeast commerce and the rest 
of the country.
    But what happened is that--and, as you know, Mr. Chairman--
is that--being from Tennessee and part of the Appalachian 
region--is that the Appalachian highway system was developed 
because a lot of our areas, rural America, are not connected to 
the original interstate transportation system. And, therefore, 
this system was set up so that our areas, rural America, could 
be connected and hopefully produce an economic benefit to it. 
So, that system was going along quite well with the addition of 
the toll credits.
    And I refer back to the savings that the State of 
Pennsylvania, because of the turnpike, produces for the Federal 
Government. These toll credits are really a reward for 
Pennsylvania. It is not an expense to the Federal Government. 
It is actually zero sum, and actually, probably even less than 
that.
    We have--and I am going to be specific, because it impacted 
Pennsylvania dramatically in the past couple of years--is that 
we have a section of the Appalachian highway system ready to go 
to construction, and is $35 million short in its match. And 
that is when the--it was discovered that the toll credits were 
taken out of the match. And, unfortunately, in our trying 
economic times, Pennsylvania does not have that extra $35 
million to fund a $350 million construction project in 
Pennsylvania.
    It is completing the Route 219 in southern Somerset County, 
which will connect it to 68 and, in essence, connects three 
east-west corridors: Route 68, that goes through Maryland and 
West Virginia; Route--the turnpike, which runs through 
Pennsylvania; and then Route 22, which is in the northern part 
of my district. And without this matching money, these projects 
won't go forward. Obviously, it is also an economic boon. The 
construction of Route 219 is going to create 2,400 to 2,600 
permanent jobs, along with about 8,000 construction-related 
jobs. So it has come at such a critical point to our local 
economy.
    But it is not just about Pennsylvania, because this toll 
credit language impacts all the Appalachian region, which 
includes Alabama, Georgia, Kentucky, Maryland, Mississippi, New 
York, North Carolina, Ohio, Pennsylvania, South Carolina, 
Tennessee, Virginia, and West Virginia. And without this, rural 
Pennsylvania, rural America, is going to be left behind. And we 
need your help.
    So, I wanted to testify. This is so critical. And I 
appreciate you taking my testimony.
    Mr. Duncan. Well, thank you very much, Mr. Critz. I believe 
that Members should try to do things for their districts. And 
your predecessor was a legend in that regard. I know you worked 
for him, and you are in the position of having to follow an 
Adolph Rupp or a Bear Bryant, but I am sure that you will 
handle it well. And certainly I appreciate your testimony here 
today.
    Mrs. Napolitano, do you have any questions?
    Mrs. Napolitano. Not at all. No questions, but a comment 
that I am looking at the corridors and their viability to be 
able to not only move people, but goods movement. And certainly 
when--at least from my area in California, we are almost 12 
million people, just in our county alone, and that is people 
that have been counted--how do we move people, not only from 
the big areas, the metropolitan areas, but from the urban and 
suburban, the agricultural areas, so that they too have the 
same ability to have their demands met, in terms of 
transportation, including safety of the roads that they travel 
for their families.
    So, thank you for your testimony. I appreciate that.
    Mr. Critz. Thank you very much.
    Mr. Duncan. Thank you very much. The next witnesses are on 
the Energy and Commerce Committee, and I understand they are 
having a vote right at this moment. So we will be in recess for 
just a few minutes.
    [Recess.]
    Mr. Duncan. The hearing will resume. We have had a lot of 
Members here today. But we are certainly honored to have, as 
our next witness, Congresswoman Nydia Velazquez, who is a long-
time friend of mine, and a really outstanding Member.
    And, Ms. Velazquez, you may begin your testimony.
    Ms. Velazquez. Thank you, Chairman Duncan and Ranking 
Member DeFazio, and members of the subcommittee. I welcome 
today's opportunity to present policy proposals to reform the 
Federal highway safety programs as the committee begins 
drafting a long-term reauthorization of the Nation's surface 
transportation programs.
    The economic downturn and rising gas prices have made 
inter-city bus service the fastest growing mode of 
transportation in the country, outpacing air and rail travel 
combined. The popularity of bus travel is dominated by the so-
called curbside carriers. Instead of using bus terminals, these 
low-cost operators use city streets to drop off and pick up 
passengers. After 40 years of declining ridership, curbside 
operators have revived the bus industry, and now originate more 
than 20 percent of all departures. However, this rapid growth 
has led to serious safety concerns.
    As you know, bus operators must follow many safety 
requirements, including screening drivers for controlled 
substances, limiting the number of hours drivers can operate, 
and properly maintaining buses and equipment. Unfortunately, 
curbside carriers operate in a gray area of the law, and 
current safety measures have not prevented deadly accidents and 
near misses from occurring around the country. The examples are 
numerous.
    Last September, four people were killed when a curbside bus 
hit a bridge in Salina, New York. On March 11, 2011, a bus 
driver in New Jersey was cited for a DUI, leaving passengers 
stranded on the side of the highway for hours. And, of course, 
there was the accident in the Bronx that killed 15 and injured 
dozens, the majority of whom were my constituents. In response 
to this tragedy, I requested a full NTSB investigation into the 
discount busing industry, looking at the condition of buses, 
driver fatigue, and safety rules enforcement. The NTSB recently 
agreed to my request and will begin a 6-month investigation 
immediately.
    Today I would like to bring to the committee's attention 
several concerns I have with the discount bus industry. 
Curbside bus operations present a unique challenge to 
inspectors from the Federal Motor Carrier Safety 
Administration. The lack of terminal facilities seriously 
hampers their ability to perform required equipment inspections 
on the Nation's growing fleet. The result is poorly maintained 
buses skipping inspection and putting lives in jeopardy.
    Driver behavior also places lives in peril. Easily 
falsified log books allow many drivers to violate the 10-hour 
driving limit. Such violations place both passengers and 
motorists in grave danger. Since the Bronx tragedy, numerous 
instances of over-worked drivers have been reported.
    Additionally, inconsistent State laws allow drivers to 
continue operating even after drug and alcohol violations. Many 
small trucking companies lack the resources to verify a 
driver's record in multiple States, forcing companies to rely 
heavily on falsified information supplied by drivers. 
Establishing a national clearinghouse for drug and alcohol 
violations would significantly reduce the number of dangerous 
drivers on the road, and the costs of conducting required 
background checks.
    Unfortunately, curbside buses may continue operating even 
after several failed inspections or citations for drivers being 
on the road too long. The lack of authority to swiftly take 
operators, drivers, and buses off the road for safety 
violations has prevented the Federal Motor Carrier Safety 
Administration from fulfilling its mission to reduce accidents 
on the Nation's highways.
    The growth of curbside busing has placed unsustainable 
pressure, not only on cities and towns, but on the Nation's 
highways, as well. The tragedy in the Bronx was the latest in a 
long line of accidents that highlight the need to improve 
oversight of the bus industry, in order to protect passengers 
and motorists.
    I come here today, Mr. Chairman, to ask the committee to 
address these concerns when drafting a long-term 
reauthorization of the Nation's surface transportation program.
    Thank you for the opportunity to testify.
    Mr. Duncan. Well, thank you very much, Nydia. It has always 
been a pleasure to serve with you.
    And, Mrs. Napolitano, do you have any comments?
    Mrs. Napolitano. Yes, Mr. Chair, just commenting on Ms. 
Velazquez's references to the curbside operators and their 
drivers not having all the necessary clearances or being--how 
would I say--inhibited by alcohol or any other drug issue.
    There is the commercial driver's license--the CDLIS, I 
think it is called--the national clearinghouse. Is there a way 
to be able to get them to--not re-review, but look at the 
current status of some of your curbside operators' ability to 
continue servicing, especially in a metropolitan area like New 
York, to be able to understand what their findings have been, 
and maybe either start placing heavier fines or be able to 
control inappropriate activity that endangers the general 
public and the tourism for that area? That would be one comment 
that I would ask, if there has been anything moving in that 
direction.
    The fact remains that people want to make money. And 
sometimes, if they are found to have a need to provide 
additional services, they will take anybody that is available 
and put them on a route.
    So, I am not sure what the issue is, in so far as the 
curbside. I didn't know there was curbside operators. I thought 
you only had buses in New York, because I really do not pay 
that much attention when I visit. But I certainly would love to 
be able to help in any way I can.
    Ms. Velazquez. Very good.
    Mrs. Napolitano. And thank you for your testimony.
    Ms. Velazquez. Thank you.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Duncan. All right. Thank you very much. Our next 
witness is Mr. McGovern, Honorable Jim McGovern from 
Massachusetts. And certainly Mr. McGovern has been a great 
leader in this Congress and for many years now, and it is an 
honor, Mr. McGovern, to have you here with us. We have had a 
lot of Members through here today, and we are getting down to 
the----
    Mr. McGovern. The final one.
    Mr. Duncan [continuing]. Last couple of witnesses.
    Mr. McGovern. Right.
    Mr. Duncan. But we are certainly pleased to have you here 
with us. You may proceed.
    Mr. McGovern. Well, thank you, Chairman Duncan and 
Congresswoman Napolitano. Thank you for allowing me to testify. 
And than you for your patience, listening to not just me, but a 
whole bunch of Members today.
    As a former member of this committee, I recognize that you 
are facing extraordinary budgetary challenges as you begin work 
on the next highway reauthorization bill. Over the past several 
years I have been a strong advocate of limiting truck size and 
weight, and I plan to reintroduce my Safe Highways and 
Infrastructure Preservation Act in the coming weeks, which 
would extend common sense size and weight limits to the entire 
national highway system.
    Various groups dominated by large shippers and large 
trucking companies are lobbying Congress right now to raise the 
maximum weight of single tractor trailer trucks from 80,000 
pounds to 97,000 pounds, and to allow longer trucks across the 
highway system. Simply, bigger, heavier trucks impose huge 
costs to State and local governments for road and bridge repair 
and maintenance, impose tremendous safety risks to motorists.
    At a time when both the Federal and State governments are 
facing projected budget shortfalls for fiscal year 2012, 
allowing increases to truck size or weight will exacerbate 
existing transportation funding problems.
    The fact of the matter is the big trucks today do not pay 
their fair share for the damage they cause to our roads and our 
bridges. A 2000 Federal Highway Administration study found that 
a typical 80,000-pound truck pays only 80 percent of its 
highway maintenance costs, and a 97,000-pound truck pays only 
50 percent of its damage costs.
    Bridges are particularly damaged by these super-sized rigs. 
The Illinois Department of Transportation recently conducted a 
cost benefit analysis of the impact on bridges in the State 
associated with raising truck weights to 97,000 pounds. IDOT's 
conservative estimate show that these heavier trucks will cost 
the State an additional $162 million in repair and maintenance 
costs for interstate bridges, alone.
    In addition to the added costs, the dangerousness of bigger 
trucks is well documented. In 2009, 74,000 people were injured 
and 3,380 people were killed in crashes with heavy trucks. 
Allowing trucks to be even heavier is a dangerous proposition.
    While some proponents of big trucks argue that bigger 
trucks means fewer trucks on the roads, the evidence just does 
not support this claim, nor does the evidence support the 
argument that bigger trucks mean a decrease in the emissions 
that cause pollution. Time and time again, we have seen that 
increasing truck size and weight results in more trucks on the 
road, more fossil fuels burned, and more highway congestion, 
not less.
    As you begin drafting the next highway reauthorization 
bill, I urge you not to increase truck size and weight on our 
highways. In these tough budgetary times, we simply cannot 
afford the cost that these dangerous mini-trains impose on our 
State and our local governments. And, as I said before, we are 
going to reintroduce my bill and we are going to reintroduce it 
with scores and scores of safety organizations across the 
country that view the increase in truck size and weight as a 
safety issue, as well.
    One final note. While I understand that tax issues are not 
the purview of this committee, I urge you to keep in mind mass 
transit as you craft your legislation. The commuter tax benefit 
in the Recovery Act that allows mass transit commuters to 
receive the same maximum benefit from their employers as those 
who receive parking benefits was extended through December 31, 
2011. I urge you to encourage the usage of mass transit as one 
way to relieve traffic congestion and give commuters more 
affordable transportation options.
    Again, I appreciate your patience, and I appreciate the 
work that is done on this committee, and I yield back my time. 
Thank you.
    Ms. Schmidt. [presiding.] Would you like to say something?
    Mrs. Napolitano. Yes. I thank you so much for your 
testimony. And you hit a subject that I have a great concern 
about, and that is the increase in not only the weight, but the 
size of the trailers.
    And I know in California there was talk of expanding to 
two--the tandem, 52-footers.
    Mr. McGovern. Right.
    Mrs. Napolitano. And the ability for them to navigate 
around the on-ramps and off-ramps is totally bogus. They 
cannot. And the fact that transportation--I can understand, 
like you have said, the trucking organizations, the companies, 
want to be able to transport more.
    Mr. McGovern. Right.
    Mrs. Napolitano. Problem in California, in many areas, is 
that they were using unleaded gas coming into California, 
spewing more environmental pollution in our area. Plus, one of 
those rigs has an accident, it shuts down the freeways.
    Mr. McGovern. Right.
    Mrs. Napolitano. And a lot of the issues that have been 
discussed in the California transportation committee that I sat 
on for 6 years, they are very, very true, even now, that the 
increase does affect the roads and the highways that we have.
    Now, you talk about bridges. There is none in my area, but 
let me tell you that in some of my cities the ruts are so big, 
caused by the excess weight in some of those rigs, that it is 
hard for sometimes the cars that are navigating. They sometimes 
have problems with their undercarriage because they fall into 
those ruts.
    So, yes, it is a big concern. And I always hear--and you 
can see the placards on some of the trucks--that they pay 
heavy-duty taxes. Well, I am not sure if it is enough to be 
able to keep the infrastructure safe for the rest of the 
traveling public.
    So, thank you very much for your testimony----
    Mr. McGovern. Well, thank you----
    Mrs. Napolitano [continuing]. And I would love to look at 
your bill.
    Mr. McGovern. Well, thank you. And you said it accurately. 
They do not pay their share, in terms of what they--in terms of 
the wear and tear on highways.
    I will just say one final thing. There are some who are 
advocating that we allow States to kind of decide this on a 
piecemeal basis. I think that is a bad idea. I think it is a 
bad idea, because then it ultimately will put pressure on other 
States to make exemptions for bigger trucks and heavier trucks 
because we have an interstate highway system. And I think that 
would be a very, very bad idea.
    I mean this is a safety issue, first and foremost. It is 
also a cost issue. And, you know, I think if any State were to 
do a cost benefit analysis of what it would mean to allow 
bigger trucks and heavier trucks on their roads, they would 
find that they would be having to pay a lot more money for 
basic repairs of their infrastructure. This is a bad idea that 
is being pushed by the big shippers right now, and I hope that 
this committee, in its wisdom, when you do the highway 
reauthorization bill, will state emphatically that we are 
against the increase in truck sizes and weights. Thank you.
    Ms. Schmidt. Thank you for your testimony.
    Mr. Butterfield, you are recognized.
    Mr. Butterfield. Chairman Schmidt, Ranking Member 
Napolitano, thank you very much for this opportunity. I am 
multitasking this morning between the Energy and Commerce 
Committee and your committee. I thank you.
    As we all painfully remember, August 1, 2007, was a tragic 
day in our country on the level of 9/11. Early that morning, 
the I-35 west highway bridge in Minneapolis collapsed, leaving 
13 people dead and 145 injured. The National Transportation 
Safety Board determined that inadequate load capacity created 
by increases in bridge weight and traffic as the likely cause. 
Sadly, the bridge had been deemed structurally deficient, all 
the way back to 1991. This was an avoidable tragedy we must 
never see happen again.
    Ensuring adequate Federal funding for inspection, necessary 
upgrades, and bridge replacement is a priority for my 
constituents in eastern North Carolina. As we consider 
reauthorizing the surface transportation programs, I urge you, 
Madam Chair, to provide adequate funding for critical 
transportation projects, to ensure public safety, and create 
jobs.
    Specifically, I urge you to support the President's $23 
billion budget request for the U.S. Department of 
Transportation. The bridge program was funded at $5.3 billion 
in 2010, but even more funding was needed. In 2010, nationwide, 
24.3 percent of bridges were considered deficient. And out of 
19,000 bridges in my State, 29 percent are rated as deficient 
or obsolete. That is a chilling statistic. The North Carolina 
Department of Transportation has indicated replacing those 
bridges in a timely manner will be a considerable challenge.
    I represent a large rural district in eastern North 
Carolina. And, as you know, most deficient and obsolete bridges 
are, indeed, in rural areas. The most recent Bureau of 
Transportation statistics report showed that 69 percent of 
deficient and obsolete bridges were in rural, local bridges. 
The need for improved transportation infrastructure in my 
district is very clear. Many bridges in rural eastern North 
Carolina are deteriorating, and pose unacceptable safety 
concerns. In numerous cases, bridge use is limited or 
restricted because the infrastructure cannot support the weight 
or dimensions of modern vehicles. Nearly 600 bridges in my 
district are rate deficient or obsolete. That is 600 bridges.
    Elizabeth City, North Carolina, the home to a U.S. Coast 
Guard air station, has an obsolete bridge spanning the 
Pasquotank River, set to be replaced in summer of this year. 
Replacing the bridge will cost over $96 million, and my State 
depends on 77 percent of those funds to come from us. The 
project will improve safety for large volumes of traffic and 
repair sinking roads and sidewalks.
    The town of Havelock, the home of Cherry Point Marine Air 
Station, has a deficient bridge spanning the Slocum Creek. 
Without significant investment, the bridge cannot meet safety 
requirements, and will continue to pose a threat to public 
safety. Our DoT has already determined that there is an 
immediate need to correct structural deficiencies in the 
pilings supporting the structure, and has moved the schedule 
start date for the project from 2019 to 2013. My district needs 
additional funding from the Federal Government to make the 
project a reality.
    States and municipalities depend on Federal funding to make 
necessary safety improvements, and to help restore bridges like 
the two that I have mentioned. Madam Chairman, we must retain a 
distinct bridge program to ensure that FHWA and States like 
North Carolina continue to have flexibility to upgrade our 
Nation's aging bridge infrastructure. I urge my colleagues to 
support the President's budget request to adequately fund the 
U.S. Department of Transportation and the distinct highway 
bridge program.
    Madam Chairman, Ranking Member, I want to thank you for 
this time. I wanted to save my accolades to the end, to make 
sure that I had enough time to make my statement, but I 
appreciate your opening up your hearing and allowing us to come 
by and share these comments with you. It is a very significant 
issue that we are facing.
    Thank you.
    Ms. Schmidt. Thank you very much. Do you have any comments?
    Mrs. Napolitano. No comments, necessarily--or no questions, 
necessarily, but comments on thanking our Members for coming in 
and giving a viewpoint of their own areas, because that is key.
    But I hear the same subject, the same topic, the same goal 
is get it done.
    Mr. Butterfield. Yes, absolutely.
    Mrs. Napolitano. Thank you.
    Mr. Butterfield. Thank you.
    Ms. Schmidt. Thank you. Next, Congressman Tonko from New 
York. Nice to see you again this morning.
    Mr. Tonko and I see each other at 7:00 Mass in the morning.
    Mr. Tonko. We get our fueling.
    Ms. Schmidt. We do. We get our forgiveness and our prayers 
at the same time, right?
    Mr. Tonko. We need them.
    Ms. Schmidt. Amen.
    Mr. Tonko. Thank you, Chair Schmidt and Ranking Member 
Napolitano, and respected members of the committee. I want to 
sincerely thank you for giving me the opportunity to speak here 
today.
    I represent the 21st Congressional District in the State of 
New York, also known as our capital region. My area is home to 
the convergence of two great highway systems, Interstate 87 and 
Interstate 90, also known as the Thruway and the Northway. We 
are also home to the Erie Canal and Barge Canal basins--some of 
the busiest freight and passenger rail tracks in the country--
the Port of Albany, multiple airports, a system of locks, dams, 
and reservoirs, and much, much more.
    As we work together to create long-term transportation 
policy that reauthorizes the highway trust fund, there are a 
few areas of interest I would particularly like to highlight. 
Those would include green corridors, high-speed rail, 
clustering upgrading aging urban cores, and smart transit. 
However, I am here before you today to focus on one issue in 
particular, that being truck parking facilities. Last session 
of Congress I introduced Jason's Law, H.R. 2156.
    Now, I would ask you if you could kindly picture this. A 
hardworking mother with a 2-year-old son in upstate New York. 
She and her husband are pregnant with twins. One late winter 
morning, she says good-bye to her husband as he heads out the 
door on another truck run. This particular run finds the rig 
filled with milk, and the destination is South Carolina. She 
has said good-bye to her husband hundreds of times before. Only 
this time, he does not come back. On March 5, 2009, that is 
exactly what happened to Hope Rivenburg. Her husband, Jason 
Rivenburg, was foolishly murdered in South Carolina while 
sleeping at an abandoned gas station along a highway. His 
murderer stole a meager $7 from Jason's wallet after shooting 
him in the cab of his truck.
    That is why I introduced Jason's Law. This bill would 
rectify the dire shortage of safe parking for trucks, and 
improve the conditions at current truck parking facilities. We 
must ensure that our drivers have safe rest areas with parking 
for commercial motor vehicles, parking facilities next to truck 
stops and travel plazas, and new facilities for parking, 
including weigh-in inspection stations.
    Additionally, we must improve facilities that are closed on 
a seasonal basis, and improve the geometric design of 
interchanges on the national highway system for better access 
to commercial motor vehicle parking facilities. Small 
businesses are the heart of the engine that drives our economy. 
If we require our truck drivers, who are themselves small 
business owners, to continue to ramp up their deliveries to 
small businesses, and even major corporations, we need also to 
ensure their safety.
    Jason's Law, by investing in infrastructure and helping to 
buttress State budget shortfalls, does just that. In these 
difficult economic times, we need to continue to pay attention 
to our role, to protect public and worker safety, especially 
where regulations mandate their necessity. I believe that is 
part of the reason that my bill garnered the bipartisan support 
of 45 Members in the 111th Congress. As we move forward in the 
112th Congress, I look forward to working with my new 
colleagues in the majority and the distinguished members of 
this committee to advance safe, stable, and reliable truck 
parking facilities.
    The trucking community is rightfully worried about changes 
to the hours of service, ability to find and comply with 
parking regulations and detention time. We are hearing from 
truckers on these topics each and every day, and it is my hope 
that Jason's Law will help to alleviate some of these fears and 
angst.
    I want to close my remarks this afternoon with these 
following words, written by songwriters Barry Allen and David 
Ayers in tribute to Jason. I quote, ``Jason drove that truck, 
reaching for that blue collar dream. Hard-working man, making a 
living driving that big machine. He loved his son, Joshua, and 
Hope, his wife. But for $7 he lost his life. With nowhere to 
rest in between his loads, he was shot to death on the side of 
the road. Say a prayer for Jason, say a prayer for Joshua and 
Hope. Say a prayer for all the truck drivers stuck out on the 
road. Say a prayer, say prayer, say a prayer.''
    Chairman Schmidt and Ranking Member Napolitano and 
distinguished members on this committee, I would like to thank 
you for letting me testify before you today, and I would only 
end with this. While saying a prayer is always a good decision 
and a helpful measure, I hope that I can work with each and 
every one of you to ensure that enactment of Jason's Law and 
make safe truck parking a reality for anyone that seeks it. And 
certainly, it is a way to answer the prayers of Hope and 
Jason's family and friends.
    Thank you, Madam Chair, and I yield back.
    Ms. Schmidt. Thank you. And I just have one question for 
you. The murderer of Jason, has he been convicted yet?
    Mr. Tonko. Yes, he has.
    Ms. Schmidt. And what was his sentence?
    Mr. Tonko. It was a number of years. I know that the family 
also went--it was very difficult on his widow.
    By the way, Hope delivered twins just weeks after the 
murder.
    Ms. Schmidt. So they will never know his father, their 
father.
    Mr. Tonko. No.
    Ms. Schmidt. God be with that family. Do you have anything 
to say?
    Mrs. Napolitano. Mr. Tonko, I agree with you. 
Unfortunately, the time when there is land for a lot of these 
rest areas to be made available, since land has become so 
expensive for a lot of our entities to provide these rest 
areas, it behooves us to start looking at Federal land or State 
land that can be leased, not necessarily sold, and developed 
for specifically that project, especially off of freeways, 
because there is right of way that is there.
    So you might want to look at how we may be able to allow 
the State or the county governments or others to look at what 
area they are not using that can be possibly allowed to permit, 
if you will, these entities, these truck drivers to be able to 
rest.
    Mr. Tonko. Absolutely. And I think also there is an 
opportunity to work with that same concept with State lands, 
because it does a partnership with private sector and public 
sector, so as to encourage the safe infrastructure that Jason 
so desperately needed.
    He showed up at his destination early. But with some of the 
changed requirements, they cause you to go and find a spot 
other than that delivery point. And so he was just ahead of 
schedule, and went to get rest, and the tragedy occurred.
    But, you know, I firmly believe that if we, as a 
government, are requiring certain demands of the trucking 
industry, of the trucker, and we do that in the name of public 
safety, everyone is benefitted by it, and we need to act 
accordingly, and we have to be there to provide the 
infrastructure to enable them to respond to the demands on 
their travel schedule and on their operations.
    Mrs. Napolitano. Well, and just a little beyond that, I 
think we need to also look at the causes for some of these 
individuals to go out and commit crimes, whether or not they 
are mentally stable, unstable, whether they are on drugs, and 
be able to have ability to go back to the providers of those 
drugs and others and slap some fines, or either--do something 
to be able to look at the root cause of some of these people 
taking these--how would I say--drastic measures to rob people.
    Mr. Tonko. Absolutely. And having witnessed the hardship 
that has befallen, and the--just the sense of loss upon this 
family just compels me to work to get this done. And we have 
been reaching out to Members in the majority to make it happen, 
because I think it is essential.
    You know, she has been under such stress and has responded 
so valiantly and courageously, that it is impressive. And I 
think it is a way to work through tragedy, to have his life not 
be in--or his death not be in vain.
    Mrs. Napolitano. Was he an independent truck driver?
    Mr. Tonko. Yes, he was. And, actually, had other career 
situations. But as a good, solid provider, he was filling his 
winter months with this added income. So--and the place he 
pulled into was definitely unsafe.
    Mrs. Napolitano. Thank you for your testimony.
    Mr. Tonko. Thank you so much.
    Ms. Schmidt. Thank you very much. I would like to thank 
each Member for your testimony today. Your contribution to 
today's discussion has been very informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open for 30 days to allow additional Members to provide 
policy proposals to be included in the record of today's 
hearing.
    [No response.]
    Ms. Schmidt. Without objection, so ordered. If no other 
Members have anything to add, this subcommittee stands ready to 
adjourn.
    [Whereupon, at 12:41 p.m., the subcommittee was adjourned.]

</pre></body></html>
